<html>
<title> - [H.A.S.C. No. 113-26]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2014 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-26]
--------------------------------------------------------------------

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                    EQUIPPING THE INDIVIDUAL SOLDIER

                     AND MARINE: CURRENT AND FUTURE

                   YEAR ACQUISITION AND MODERNIZATION

                     STRATEGIES AND THE FISCAL YEAR

                          2014 BUDGET REQUEST

                               __________

                              HEARING HELD

                             APRIL 11, 2013

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     




                  U.S. GOVERNMENT PRINTING OFFICE
80-755                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              MIKE McINTYRE, North Carolina
CHRISTOPHER P. GIBSON, New York      JIM COOPER, Tennessee
JON RUNYAN, New Jersey               JOHN GARAMENDI, California
MARTHA ROBY, Alabama                 RON BARBER, Arizona
PAUL COOK, California                DANIEL B. MAFFEI, New York
JIM BRIDENSTINE, Oklahoma            JOAQUIN CASTRO, Texas
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             WILLIAM L. ENYART, Illinois
MAC THORNBERRY, Texas                PETE P. GALLEGO, Texas
WALTER B. JONES, North Carolina      MARC A. VEASEY, Texas
ROB BISHOP, Utah
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Julie Herbert, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, April 11, 2013, Equipping the Individual Soldier and 
  Marine: Current and Future Year Acquisition and Modernization 
  Strategies and the Fiscal Year 2014 Budget Request.............     1

Appendix:

Thursday, April 11, 2013.........................................    29
                              ----------                              

                        THURSDAY, APRIL 11, 2013
 EQUIPPING THE INDIVIDUAL SOLDIER AND MARINE: CURRENT AND FUTURE YEAR 
   ACQUISITION AND MODERNIZATION STRATEGIES AND THE FISCAL YEAR 2014 
                             BUDGET REQUEST
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Ostrowski, BG Paul A., USA, Program Executive Officer, Soldier, 
  U.S. Army; and Peter B. Bechtel, G-3/5/7, Director, 
  Capabilities Integration, Prioritization and Analysis, U.S. 
  Department of the Army.........................................     3
Smith, BGen Eric M., USMC, Director, Capabilities Development 
  Directorate, Combat Development and Integration, U.S. Marine 
  Corps; and BGen Frank L. Kelley, USMC, Commander, Marine Corps 
  Systems Command, U.S. Marine Corps.............................     4

                                APPENDIX

Prepared Statements:

    Ostrowski, BG Paul A., joint with Peter B. Bechtel...........    33
    Smith, BGen Eric M., joint with BGen Frank L. Kelley.........    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Castro...................................................    63
    Ms. Tsongas..................................................    63

Questions Submitted by Members Post Hearing:

    Ms. Duckworth................................................    83
    Mr. Enyart...................................................    70
    Mr. Jones....................................................    67
    Mr. LoBiondo.................................................    69
    Mr. Turner...................................................    71
 EQUIPPING THE INDIVIDUAL SOLDIER AND MARINE: CURRENT AND FUTURE YEAR 
   ACQUISITION AND MODERNIZATION STRATEGIES AND THE FISCAL YEAR 2014 
                             BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Thursday, April 11, 2013.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. I call to order the hearing of the Tactical Air 
and Land Forces Subcommittee. The Tactical Air and Land Forces 
Subcommittee meets today in open session to receive testimony 
on individual soldier and marine equipment programs in the 
fiscal year 2014 budget request. Today we will continue the 
subcommittee's oversight on the many challenges facing 
individual warfighter equipment, to include industrial-based 
sustainment, advances in weight reduction and equipment 
specifically tailored for the female warfighter.
    This committee and this subcommittee in particular has 
always stressed the importance of individual warfighter 
equipment and has done so in a bipartisan manner through 
hearings and legislation. In bipartisan fashion we have worked 
with the Department and industry to eliminate critical 
equipment shortages post-9/11. We have drafted legislation 
reflecting the critical need for weight reduction for 
individual gear and have tried to improve the acquisition 
process in order to better incentivize industry.
    I want to thank our former subcommittee chairman, ranking 
member, and other subcommittee members for their actions in 
this matter.
    The past decade saw a significant increase in funding and 
prioritization for individual warfighter equipment, primarily 
through overseas contingency operations funding. Industrial 
bases were expanded and sustained at high capacities in order 
to meet evolving threats and high-priority demands from troops 
operating in Afghanistan and Iraq. This helped to incentivize 
innovation from industry and helped to mature technology for 
programs like body armor, protective clothing, and night vision 
equipment. Many lessons were learned regarding what worked and 
what did not.
    I commend the improvements that have been made as well as 
the increased level in investment from prior years. However, 
considering the present fiscal realities, I remain concerned 
that the future priorities and levels of investment for 
individual equipment be sustained. We still have soldiers and 
marines carrying almost 150 pounds of gear on their back, 
depending upon the mission. Despite our better judgment, we are 
entering into a period of transition, the so-called peace 
dividend, and what happens to be a prolonged period of reduced 
defense budgets. What happens to individual warfighter 
equipment investment when the OCO [Overseas Contingency 
Operations] budgets go away and there is no longer a sense of 
urgency to address warfighter demand for lightweight gear?
    We have a panel of witnesses here today who are prepared to 
address long-term modernization sustainment and integration 
strategies for individual equipment programs, current efforts 
to lighten the soldier and marine combat load, and ways to 
incentivize industry to continue to invest in innovation.
    Before we begin, I would like to turn to my good friend and 
colleague from California, Ms. Loretta Sanchez, for any 
comments she may want to make.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Sanchez. Thank you, Mr. Chairman, and thank you all. I 
know I said hello to some of you, but I notice that you have 
brought a lot of people to answer our questions today, so I 
appreciate that. Thank you all for your service to our country.
    We are really here today to try to figure out how we move 
forward now that we are out of Iraq and coming out of 
Afghanistan, and in particular with respect to the individual 
soldier or marine or seaman or airman, et cetera, and women, by 
the way, you know, what it is going to look like in the future. 
And we know the more technology we have, the more information 
we have, the more we want them to be so well equipped that 
sometimes they are carrying 150 pounds along with them.
    So the answer is how can we use the new technologies, the 
new breakthroughs and ensure they are being used in the 
equipment that our men and women want and need and how do we do 
that in a time also of budget constraints. And as the chairman 
said, we threw a lot of money at this and we tried to fix the 
problem during the war, and then what typically happens is that 
you, especially in a tough time with no conventional-type or 
big war going on, you tend to downsize on equipment or not make 
the innovation that you need in equipment and try to 
concentrate on the larger systems or what have you.
    So we want to make sure that we don't do that, in 
particular because the way some of this equipment or most of 
this equipment has been bought over this decade has been 
through no line item, but really in contingency accounts. So we 
are here to try to figure out and get some answers as to what 
we need to do.
    I am going to have some questions for you with respect to 
the rifle competition and how that is going. I am interested in 
equipment for women now that we are going to be opening up more 
MOSs [Military Occupational Specialties] for women in the 
military at large. And I am also interested in how we are going 
to keep innovation coming into the circle as we move forward 
and we don't really have the type of procurement or monies that 
we have had in the last decade.
    So those are my concerns and I am sure that we will have a 
good discussion today. So I welcome you. And thank you, Mr. 
Chairman. And I also want to thank the members who have shown 
up for the subcommittee hearing. I appreciate it also. Thank 
you.
    Mr. Turner. Thank you, Congresswoman Sanchez.
    We want to welcome then our witnesses. We have Brigadier 
General Paul A. Ostrowski, Program Executive Officer, Soldier; 
Mr. Peter B. Bechtel, Director, Capabilities Integration, 
Prioritization and Analysis; Brigadier General Frank L. Kelley, 
Commander, Marine Corps Systems Command; and Brigadier General 
Eric M. Smith, Director, Capabilities Development Directorate.
    Gentlemen, thank you for your service and thank you for 
being with us here today. We are going to proceed with your 
testimony and then go into questions.
    Without objection, we ask that all witnesses' prepared 
statements be included in the hearing record and we also ask 
unanimous consent that non-committee members, if any, do come 
to attendance, we have some that RSVPed that they will be here, 
the non-committee members be allowed to participate in today's 
hearing for all subcommittee members after they have had their 
opportunity to ask questions, and if there is no objection, the 
non-committee members will be recognized at the appropriate 
time for questions also.
    With that, General Ostrowski.

   STATEMENT OF BG PAUL A. OSTROWSKI, USA, PROGRAM EXECUTIVE 
  OFFICER SOLDIER, U.S. ARMY; AND PETER B. BECHTEL, G-3/5/7, 
    DIRECTOR, CAPABILITIES INTEGRATION, PRIORITIZATION AND 
             ANALYSIS, U.S. DEPARTMENT OF THE ARMY

    General Ostrowski. Chairman Turner, Representative Sanchez, 
distinguished members of the Subcommittee on Tactical Air and 
Land Forces, on behalf of myself and Mr. Pete Bechtel, we thank 
you for this opportunity to discuss the fiscal year 2014 budget 
request for equipping the individual soldier and marine. It is 
our privilege to represent senior Army leaders and America's 
soldiers. It is our privilege also to appear before this 
subcommittee with the fellow warfighters of the United States 
Marine Corps. We thank you, Mr. Chairman, and all subcommittee 
members, for your sound advice and strong support of the Army 
as we strive to ensure that our soldiers are well trained and 
well equipped to undertake any mission in any environment.
    The lethality, safety, and security of soldiers remain the 
Army's highest priorities. We have without question the best-
equipped, most technologically advanced fighting force in the 
world, but there are still challenges that we must meet. 
Today's all-volunteer, combat-seasoned soldier has steadily 
borne the brunt of increased equipment load, necessitating 
considerable attention to modernization efforts aimed at 
lightening that burden while maintaining a decisive edge over 
any potential adversary. This is an important element of our 
modernization plan.
    Our senior leaders continue an open dialogue with industry. 
Now, perhaps more than ever, it is clear that we must work 
together to identify appropriate courses of action to minimize 
negative impacts on our plans, programs and industry partners. 
We must continue to meet our contingency requirements while 
carefully balancing readiness and modernization.
    We thank you again for your strong support of our soldiers 
and the Army. We are part of a joint force, constantly working 
to enhance the safety and security for our warfighters. Your 
wisdom and guidance is deeply appreciated as we work to ensure 
that our soldiers have the right equipment for the right 
operations at the right time to successfully accomplish their 
missions and return home safely.
    We look forward to your questions.
    [The joint prepared statement of General Ostrowski and Mr. 
Bechtel can be found in the Appendix on page 33.]
    Mr. Turner. Thank you.
    General Smith.

 STATEMENT OF BGEN ERIC M. SMITH, USMC, DIRECTOR, CAPABILITIES 
 DEVELOPMENT DIRECTORATE, COMBAT DEVELOPMENT AND INTEGRATION, 
 U.S. MARINE CORPS; AND BGEN FRANK L. KELLEY, USMC, COMMANDER, 
        MARINE CORPS SYSTEMS COMMAND, U.S. MARINE CORPS

    General Smith. Chairman Turner, Ranking Member Sanchez, and 
distinguished members, thank you for the opportunity to appear 
before you today on behalf of your marines and their families. 
This committee is vitally important to the Marine Corps because 
it focuses on the individual rifleman, the heart and soul of 
the Marine Corps.
    Brigadier General Kelley and I have prepared one written 
statement for the Marine Corps which has been delivered and I 
will offer a few brief opening statements for us both. I will 
keep these comments extremely short so that Brigadier General 
Kelley and I might use the maximum possible time to answer the 
important questions which you may ask. I would also thank very 
much our brothers in the Army for their support of all that we 
have done.
    Having deployed twice to Iraq and once to Afghanistan, I 
can personally attest to the positive impact which you and your 
due diligence and hard work have had on the lives of the 
marines and sailors of our Corps and their families. Your 
willingness to provide support for us, to obtain the equipment 
we needed, meant that more warriors returned home to their 
families than otherwise might have been possible. I offer you 
this information not as a platitude but as an honest assessment 
from one marine back to his teammates who provided him with 
lifesaving support while in theater. I guarantee you that the 
marines who are forward-deployed at this very moment echo my 
sentiments.
    We look forward to answering your questions, and, again, 
thank you for allowing us to appear here before you today.
    [The joint prepared statement of General Smith and General 
Kelley can be found in the Appendix on page 49.]
    Mr. Turner. Thank you, gentlemen, for appearing before the 
committee and for the information provided.
    This is one of those issues where sometimes it is a funding 
issue, sometimes it is a specific equipment issue, sometimes it 
is a process issue that affects our ability to get to the 
warfighter exactly what is needed for their performance. And I 
am going to ask you one of those process-procedure questions.
    We are very concerned about the issue of body armor 
components and the fact of the extensive weight that our 
service members are experiencing both as we know it is having 
impacts on their bodies and on injuries, but also we know that 
it affects agility in the field. So in 2010 Congress mandated 
that the DOD [Department of Defense] establish a procurement 
line item for body armor components, again a process action, 
because Congress believed that there would be a better 
opportunity to get lighter equipment working in partnership 
with industry than the process that was currently going 
forward.
    However, DOD has failed to comply with this requirement. 
DOD has indicated that body armor is considered to be an 
expendable item and that creating a procurement line for 
expendable items would add inefficiencies in managing 
procurement quantities due to varying procurement quantity 
requirements. Its duty is exclusively using operations and 
maintenance accounts almost entirely funded with overseas 
contingency funds to fund warfighter equipment. Industry is 
unable to see and forecast procurement levels across the Future 
Years Defense Plan. As a result, they cannot create business 
cases that support internal investment. Congress had stepped in 
trying to affect that process so that perhaps we could get both 
the same level of protection, but yet equipment that more meets 
the needs of the mobile warfighter.
    DOD has stated that these inefficiencies would be created 
by establishing procurement line items for individual 
warfighters. I am concerned and want to know what your position 
is as to the opportunity to more effectively work with 
industry. We understand that DOD has said by using O&M 
[Operations and Maintenance] funding that they cite flexibility 
in acquisition, but we now have a situation where we have so 
substantially acquired what is almost a body protection system 
or systems for warfighters that perhaps it is time that we 
elevate it in the procurement process so that we can more 
technically affect the outcome.
    I would love your thoughts, if anyone would like to 
comment.
    General Ostrowski. Thank you, Mr. Chairman. I will start 
off. As you know, we are on record as a department that body 
armor would fall under the operations and maintenance accounts 
based on the flexibility that you cited. The letter from the 
Under Secretary of Defense to you and others clearly cited 
that. I think the key here, sir, is the flexibility piece that 
it offers and it has offered us some.
    A case in point. Just recently we came upon a new threat in 
Afghanistan to our dismounted patrols, and those were 
dismounted IEDs, improvised explosive devices. When we had 
money in a line in the O&M account we were able to quickly move 
that money to create a counter to that called our protective 
overgarment and undergarment system which we have fielded up to 
66,000 sets of and are currently saving lives in Afghanistan. 
That flexibility was really highlighted with respect to that 
particular procurement.
    With respect to the industry and not having visibility over 
our programs if it was hidden underneath an O&M line, we have a 
very open dialogue with industry, and going forward with the 
soldier protection system, which is the next generation of 
protection systems for all of our soldiers, we have maintained 
very tight contact with industry to include industry days, 
where we had over 100 vendors come in and we discussed our 
requirements and where we were going with respect to that.
    We are currently funded well in DPEO [Deputy Program 
Executive Office] to create a capability of our soldier 
protection system and I know that there is a lot of push to 
move that line into the procurement side. I would just say that 
from our perspective, the flexibility is key, because with 
respect to personal protection, our ability to shift is 
adamantly important across the force.
    Mr. Turner. Thank you for giving that answer, because my 
followup question obviously, I understand the flexibility in 
the aspect of quantity and I understand the flexibility in the 
aspect of acquiring existing items or systems, but I think 
everyone is concerned about the development process, how do we 
get beyond just you being a purchaser but also then that 
partner with development. Because I think everyone shares, I 
know you share the same concern, that what you currently have 
is going to have to evolve to the next generation, the next 
level, so that we can ensure that, A, we don't have injuries, 
but also with the aspect of agility, it is less safe for the 
soldier in the field when they have a greater weight for them 
to be able to move.
    General Ostrowski. Yes, sir. The one thing that the 
Department did do was ensure that we established a research and 
development line for our personal protection equipment, and 
that is the area that we invest, that is an investment account 
within the research and development line, and that is very open 
for visibility with respect to industry, our industry partners 
and so forth. That is where we go and chase----
    Mr. Turner. How did that line fare in this budget?
    General Ostrowski. Sir, that line, I don't have the exact 
number on it. I will tell you, sir, that within my research and 
development lines that I have within Soldier and the budget is 
approximately $185 million, which is above last year's request 
and last year's funding amount.
    Mr. Turner. Thank you. With that, I will turn to my ranking 
member.
    Ms. Sanchez. Thank you, Mr. Chairman. I outlined the areas 
that I had a concern for you when I began, so let me just go 
through this first with Mr. Bechtel.
    I feel that the Army is starting to say that individual 
equipment is good enough. I mean by that we had this problem 
before when we entered the war in Iraq and some people had 
better body armor than others and we lost lives. It cost us 
lives. So I am concerned that the Army is underestimating the 
performance costs and the long-term costs of the innovation 
with respect to weight.
    I mean, I consider myself someone who goes out and 
exercises every day and I know what weight does, and I am 
concerned that we are overloading soldiers. I am concerned that 
there is some skeletal information coming out that maybe they 
have too much on them. I know we had this, for example, on my 
police--when I look at our police, our law enforcement, local 
law enforcement, something like 40 percent of back injuries, 
and there is a lot of them throughout all the agencies, are due 
to too much weight on the belt, too much weight, et cetera, on 
the soldier, or in that particular case the policeman.
    So my questions are, one, is there a DOD investment 
strategy for new materials that will provide improvements to 
warfighter equipment? How are we going to gauge that? How are 
we going to do that? And can you provide a couple of examples 
of the most recent new products that have significantly reduced 
the load on the soldier?
    Mr. Bechtel. Well, Congresswoman, you are exactly right. We 
certainly take care and have prioritized the mobility of our 
soldiers, both in terms of operational needs and in the long-
term impacts from a manpower, personnel, and integration 
approach. It starts early on in the combat developer in labs. 
It proceeds forward all the way through tests, and ultimately 
during downrange forward operational assessments and so forth. 
So you are spot-on in terms of having impact on the soldier 
with predominately weight.
    There is obviously the balance between protection, 
ballistic protection in most cases and otherwise, and the 
weight and the mobility aspect. We consider that very 
carefully, and General Ostrowski's comments on some of that 
with weight reduction for the body armor goes to that, working 
with industry and redefining the development document 
requirements to demand threshold 10-percent reduction in weight 
and moving on to an objective of 15-percent reduction.
    Some recent examples of success stories goes to some of the 
network, and network, of course, is one of our five big 
priority areas for our soldiers' portfolio, and reducing the 
network and the battery weight as we go forward. So the various 
innovations of using commercial off-the-shelf and of 
capitalizing on what soldiers are more comfortable and familiar 
with, while also moving to conform battery and other soldier 
systems to reduce weight and the deployable net-zero type 
systems has been one important innovation that we have 
examined.
    The other area is in the protective mobility realm using 
robotics specifically, soldier carried and transportable, as 
well as self-transportable systems that will help protect the 
cognitive and the physical stamina of the soldiers when they 
are operating as part of a squad as a system.
    Ms. Sanchez. Generals, if you could also speak to what 
types of innovation or what you are doing about the size with 
respect for example if we are going to have women marines or 
soldiers in the combat area.
    General Ostrowski. Yes, ma'am. First of all, I would like 
to just cite out a couple of other examples in addition to what 
Mr. Bechtel just answered. Our current improved outer tactical 
vest weighs 31 pounds. The soldier plate carrier, which we are 
now using in Afghanistan, dropped that weight to 24 pounds, so 
an incremental improvement right there in itself.
    The female body armor, ma'am, is our latest invention that 
we were able to create with our industry partners and our 
Natick lab. What we were able to accomplish is a weight 
reduction from 31 pounds in the improved outer tactical vest 
down to 25 pounds for our female body armor. We currently have 
19 sets of that female body armor in theater, we have it in 
eight sizes and we are going to field 600 sets in the months of 
August and September to the next forces deploying as part of 
the rapid fielding initiative.
    Ms. Sanchez. 600 female sets?
    General Ostrowski. 600 female sets. Yes, ma'am.
    Ms. Sanchez. In eight different sizes.
    General Ostrowski. Yes, ma'am. That is exactly correct. And 
going forward we will always field female body armor to our 
deploying forces from this point forward. August will be our 
first lot of those, and from now on every soldier, every female 
soldier deploying in the theater, will be given female body 
armor.
    Ms. Sanchez. Thank you, General.
    General Smith. Ma'am, thanks for the opportunity to answer 
on this question. We are following closely what the Army is 
doing with regard to female body armor. Our position is that 
for us protection is paramount and that we wish to have both 
protection and comfort, but we won't sacrifice any protection 
for any marine, be it male or female, in order just to gain 
some comfort.
    Our plate carrier, which is what we are currently using in 
Afghanistan, is in and of itself inherently scalable. It has 
got a shoulder strap system that is very lightweight that 
allows almost any torso size to fit that carrier to the body in 
the best possible means. That is what we are doing in order to 
lighten the load.
    We absolutely echo and applaud your comments about injuries 
to shoulders, knees, backs, necks, ankles, hips. You name it, 
we are also experiencing and seeing that firsthand. So 
everything that we are doing when we work with industry is to 
let them know through industry days, through modern-day marine 
expos, that we need to lighten the weight. We need to reduce 
the weight of the material which carries the plate, the plate 
being the heart and soul of a protective system, because that 
is truly what is stopping the enemy threat, is the plate. We 
are doing that on a daily basis as we work back and forth with 
industry.
    I would simply say before I pass it to General Kelley is 
that we do walk somewhat of a fine line in that if the 
requirement is for the protection and then we also establish a 
specific requirement for the weight, we could find a difficulty 
in having a system that protects, such as the plate, but then 
causes a problem when we say well, it is protected but it 
didn't meet the weight requirement. And we will be in an 
endless do loop of pursuing the perfect--the gold-plated 
standard.
    Ms. Sanchez. General, do you have any comments on that?
    General Kelley. I can't really improve too much on what you 
have already heard, ma'am, but I would like to say one 
organization that we have at Marine Corps Systems Command, and 
even though it is at Marine Corps Systems Command we share this 
data with the Army and to be perfectly honest any of the other 
Services that would want to get their hands on it, and that is 
our Marine Expeditionary Rifle Squad. They have a program 
called MC-LEAP [Marine Corps Load Effects Assessment Program], 
and the Marine Expeditionary Rifle Squad essentially focuses on 
the marine in our case, and we look at both male and female 
marines when we take a look at the MC-LEAP program, which takes 
a look at everything that this marine is going to wear and then 
puts them through a fairly grueling obstacle course and then 
evaluates what has happened to them during that evolution. And 
we look at everything, like how did they feel, how did they 
feel when they started, how did they feel when they ended, what 
was their heart rate, did they feel an impact on certain parts 
of their body.
    Just to let you know that that was sort of tucked away in 
an individual weapons systems program, and we felt that it was 
so important that we actually elevated that policy to our 
systems engineer, our systems engineer of the Marine Corps, a 
guy by the name of Jim Smerchansky, and that Marine 
Expeditionary Rifle Squad approach is applied to everything 
that we do at Marine Corps Systems Command, based on the 
individual marine.
    Ms. Sanchez. Lastly, I am the only one on this side, Mr. 
Chairman, so I hope you will indulge me with this, just a quick 
question. I mean, you guys are going to get a lot of time.
    When I worked with the law enforcement I remember we did 
bulletproof vests and we had a program, we had a grant program 
from Homeland Department which I shepherded through because I 
also sit on Homeland, and one of the things that was 
interesting was at that time that my officers were using 
protection that was over 5 years old and after 5 years, because 
of sweat and sun and weather and using it and everything, it 
wasn't effective.
    So my question to you, in the types of battle situations 
and everything where our people are wearing this, what kind of 
a shelf life does the equipment you are using have, and doesn't 
that sort of harken to this should be a line item where we are 
consistently understanding that we have got to be replacing 
this stuff and buying this stuff versus just loose out there?
    General Ostrowski. Yes, ma'am, you are exactly correct. It 
must be properly surveilled and it must be properly bought so 
that we do not have a situation where the body armor becomes 
ineffective.
    Ms. Sanchez. How long, if someone is using it out there, 
does it last?
    General Ostrowski. Yes, ma'am. It depends on the individual 
soldier, quite honestly, because of the fact that an individual 
soldier will put the body armor through its paces.
    Ms. Sanchez. Right.
    General Ostrowski. What we do to ensure that the body 
armor, the plates are up to standard, is prior to ever soldier 
deploying, we have a non-destructive test, it is basically an 
X-ray, and we X-ray those plates. Halfway through the tour of 
the soldier in theater we X-ray those plates yet again. And 
then again when they return back to CONUS [Continental United 
States] we X-ray them yet again.
    So what we do is we ensure that they go into theater with a 
body armor that is complete and is sound, and we continue to 
surveil that through the process of being in the fight. This 
process works very, very well and is well established. But 
however, we do need to continue to buy body armor because it 
does wear out over time in terms of storage, and that was 
recently exposed with respect to the SOCOM [Special Operations 
Command] plates that had a separating of the materials over 
time.
    Ms. Sanchez. Great. Thank you, Mr. Chairman. I have some 
other questions, but considering you have so many people on 
your side, I will let them ask for a while. How is that?
    Mr. Turner. Great. I appreciate that. What we have in order 
is Mr. Cook, Dr. Wenstrup, Mr. Runyan, Mr. Gibson, Mrs. Roby, 
Mrs. Walorski, and Mr. Castro.
    We are beginning with Mr. Cook.
    Mr. Cook. Thank you, Mr. Chair. Thank you, gentleman. I 
just want to ask a couple of questions about the testing of 
this. Part of my questions are, I don't know, maybe I should 
have read S.L.A. Marshall's--or reread those books one more 
time about the mobility of a soldier, or, if I could 
paraphrase, a marine, and how are you going to test this, 
whatever you come up with. Right away I am thinking of Fort 
Irwin or MCAGCC [Marine Corps Air Ground Combat Center 
Twentynine Palms] out there where it is 120 degrees. And 
whatever you come up with I want to make sure that those 
soldiers and marines can move around with that equipment. 
Twenty-five pounds is a lot. And then depending upon what kind 
of gear you are going to have, what is going to be on it, 
grenades and all this stuff, and I can go on and on and on, but 
it weighs that individual down.
    There was a guy by the name of Al Gray at a conference 100 
years ago, before you were probably born. Al Gray talked about, 
hey, it is very easy to make decisions. We were talking about 
cold weather gear, which at the time the Marine Corps had gear 
that was pre-World War II. And he said it is very easy to make 
decisions in Natick when it is 70 degrees in the laboratory, 
but if you don't really test this in the field environment 
under different combat situations, you are going to be in for a 
surprise. And my surprise was 13 May, 1967, with the M16 rifle, 
which was going to be the great, great savior. And I won't even 
describe the horror show of Bravo Company, 1st Battalion, 1st 
Marines. Why? Because it was not ready. And we went over there, 
and, oh, yeah, you got to keep the weapon clean. You get on a 
helicopter, the prop wash, and you get out. You land, you get 
in a firefight and, guess what? One round, you have a failure 
to extract, and it is back to the Revolutionary War where you 
have to take a cleaning rod and punch it out to get that weapon 
working. A lot of marines died, unfortunately, probably some 
soldiers died, because it wasn't tested for battlefield 
conditions.
    So my question basically is I just want to make sure on 
whatever equipment we have, that we exhaust all the scenarios 
and everything, including what areas you are going to be 
fighting, how far they are going to be able to go, whether they 
can go on a 10-kilometer, 20-kilometer hump, because I tell 
you, it is going to affect you. And those weights you are 
talking about, you know, my back is--by the way, the flak 
jacket probably saved my life because I was stupid enough to 
trip a booby-trap and 2nd lieutenants should not be walking 
point, and that is another story in itself. But it actually 
worked. And all I am saying is that I hope we could do that. I 
really think that it is imperative that we have the best 
equipment, offer the best protection for the scenario that they 
are going to be in. And this might have to change.
    So the problem I had with the military, once you are 
committed, you know, that is going to be on the shelf for how 
many years? We have got to have that flexibility, because 
certain situations change and based upon the field data we 
might have to change the whole scenario. So if you could 
comment on that.
    General Smith. Sir, thanks for that question. We share a 
similar fear in General Gray and a similar situation of being 
out where we maybe should not be and being injured in the 
fight.
    I can tell you, sir, that what we do, and General Kelley 
has some specifics on part of the testing that we do, but as an 
infantry battalion and regimental commander, I often had to 
provide my forces here in CONUS to test and evaluate the 
equipment that was being proposed in its early fielding before 
we went to full-rate production, so I would give a platoon or a 
squad or a company to test that. And as you know, sir, lance 
corporals are not very shy about telling you if something does 
or does not work before we start spending real money on that.
    Mr. Cook. Thank God.
    General Smith. Yes, sir. So we do test this, and as we 
always say, in every climate and place. We will send it to Camp 
Lejeune, we will send it to the desert at Twentynine Palms, 
attempting to test and see how this thing does in everything 
from cold conditions to sandy conditions, and we let the users 
use it and provide us feedback as opposed to this is what you 
are getting, we are going to let you tweak it now. We ask them 
up front, does this work for you, can you fight with this?
    I will tell you, sir, that because of the work, again, not 
a platitude, but of this particular committee, we are able to 
produce things and field them in combat that work, because my 
weapon worked every single time as did every single marine that 
I had, both at regiment and battalion. I had multiple marines 
shot in the SAPI [Small Arms Protective Insert] plate, get up 
and walk home. So there is a tremendous amount of confidence by 
the youngsters that are out there operating with this gear now 
because they or somebody they know got to run it through the 
wringer out at the mud at Camp Pendleton.
    General Kelley. Just to echo about General Gray, in his 
vast career a lot of people don't know that General Gray at one 
time was the commanding general of the Marine Corps Research 
and Development Command, MCRDC, which is the legacy command of 
where I am, and General Gray lets me know frequently how we are 
doing. So far I think we are doing okay, because I still have a 
job.
    Sir, one point that you bring up about the M16, there is a 
great book out there, I don't know if you have had a chance to 
read it, The Great Rifle Controversy [The Great Rifle 
Controversy: Search for the Ultimate Infantry Weapon from World 
War II Through Vietnam and Beyond]. It talks about the first 
days of how we developed rifles. And I had a chance to read 
that book, and one thing that it taught me is that the rifle, 
the ammo, and the soldier or the marine behind it, it is a 
whole system and we need to approach it from a systems 
perspective. So that is why using soldiers or using marines of 
all shapes, sizes, and genders is absolutely critical.
    I cut my teeth on my first non-fleet tour up in China Lake, 
sir, learning how to do operational tests out in VX-5 [Air 
Development Squadron FIVE], loved it, and it is one of those 
things that shapes your career. So like Eric and Paul and Pete, 
I share your concern about testing as well. I am sure we will 
get a chance today to probably talk about ECH [Enhanced Combat 
Helmet], and that is an area where testing has proven itself to 
be invaluable for that. I will save my comments on ECH later.
    Mr. Turner. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chair. I served a year in Iraq 
'05-'06 as a surgeon in a combat support hospital so I base my 
questions and my comments on my experiences there, as you might 
imagine, and I will say that there were many, many lives saved 
by the individual body armor that soldiers and marines were 
wearing, and I was very pleased to say an 89-percent 
survivability rate is unheard of in war.
    I wonder, do we keep track of lives saved by the armor that 
we implement, and at the same time look at times when maybe the 
armor fell below expectations and we had a loss?
    General Smith. Sir, I can't answer your question 
specifically that we do in fact track every single marine or 
soldier who was struck in a SAPI plate by enemy projectile and 
survived or did not survive. I can't answer that. I can tell 
you that the survival rate that you are talking about is very, 
very typical. In fights in and around Fallujah, a great witness 
one day is a guy named Captain Dana Covey, and the marines all 
knew that if you hit Captain Covey's table there at the Bravo 
surgical hospital you were going to survive. All you had to 
have was something better than an agonal pulse and you would 
survive. The marines actually talk about that. Young lance 
corporals know that if you make it there, you are good. They do 
have tremendous amount of confidence in the gear that they are 
carrying and they have been issued.
    As goes back to earlier questions, the weight of it though 
is a concern, and we will continue to try to reduce that 
weight, because that does have longer term effects. Usually 
what we are dealing with is a youngster who is trying to get 
into the fight as opposed to get out of the fight. That is who 
we are, that is who we recruit, that is who comes to us.
    So we also check to make sure those plates are uncracked, 
that they are in optimum shape. We have to be very, very 
careful on how we do that, because we all learn how to play 
with pain very early on and that is kind of who we are as a 
force, so we do have to kind of ensure that we are providing a 
true supervision to make sure that the marines that go into the 
fight not only have the perfect gear, but having to reissue 
that gear would not prevent him from going into the fight.
    Dr. Wenstrup. I have to say that I was impressed about 6 
months into our tour that we received new armor, that we got 
new plates because there was a newer and better version. It 
made you feel that someone is looking out for you and 
constantly trying to improve things. So I applaud that.
    One of the concerns that I had at the time, and I haven't 
seen it since that time, was when we had the mismatch of 
uniforms and where you were wearing an old BDU [Battle Dress 
Uniform] vest with the ACU [Army Combat Uniform] or something 
like that. And we went through a period where there was a very 
good sniper in the area and my concern was it was such a 
definitive outline for a sniper to see the differentiation 
between where the armor ended and where flesh began. I haven't 
seen that since, and I hope that that is a standard that we 
will never see that again, because I do feel that was an 
unintended consequence, but it is certainly something that took 
place. Maybe you can verify my trust that that is the situation 
today.
    General Ostrowski. Sir, I can certainly verify that, both 
in our current uniform and operational clothing, individual 
equipment, our body armor that we wear that now. And going 
forward in the Army should we decide to undertake a new uniform 
for the Army, the body armor, the organizational clothing, 
individual equipment will match the family of uniforms very 
closely.
    Dr. Wenstrup. Thank you. I yield back my time.
    Mr. Turner. Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman. I don't want to make 
it a statement, but if there is a question in it, it is 
actually for Mr. Bechtel. Obviously with being a member of this 
subcommittee, I chair the Veterans' Affairs Subcommittee on 
Disability Assistance and Memorial Affairs, and as we go 
through this process I wanted to ask Mr. Bechtel, talking about 
priority and analysis from a holistic place where we sit 
dealing with the taxpayers' money from both aspects, not only 
from the HASC [House Armed Services Committee] aspect, also 
with dealing with these broken soldiers and marines at the end 
of the day. At the end of the day it is costing the taxpayer 
money if we don't have the lightest or we are not pushing the 
technology hard enough because we are afraid of spending the 
money there but we are spending it down the road.
    Is there any of that analysis that goes into thinking about 
those future things? I know for myself I played 14 years in the 
NFL [National Football League]. I feel it every day. It is that 
beating you put on your body, and it doesn't catch up to you. 
And I am not even 40 yet and I feel it every day. But you are 
going to have a lot of those same things coming down the road. 
Is there any of that analysis that takes place?
    Mr. Bechtel. There is, Congressman. As we discussed before, 
that is a very important part of the requirements, the testing, 
the procurement, and then postfielding analysis as well. We 
have talked a lot about body armor and you clearly understand 
the tradeoff between protection, ballistic and otherwise, and 
the weight for mobility purposes, as well as near-term health 
and long-term health on the skeletal, the muscular, et cetera. 
The same for the helmet and other systems and so forth.
    We are taking a hard look at ways to improve the mobility 
of the soldier and the squad as a system in terms of use of 
robotics, use of vehicle support, changing our doctrine and our 
concepts, not just the materiel aspect, in terms of how we will 
provide just-in-time logistics to the tactical edge and so 
forth.
    I would highlight, sir, some other areas of innovation as 
well though. Vehicular suspension as well as protection goes to 
that point; the development now of the T-11 parachute for 
airborne troopers to help arrest the rate of descent and to 
accommodate the heavier soldier now with an under-chute weight 
approaching 300 pounds, given the previous conversations about 
how much weight our troopers are carrying. So we are taking 
that innovative approach across a lot of systems to take care 
of our soldiers for the near-term operational mission need, but 
as important the long-term health and quality of life, sir.
    Mr. Runyan. Do you see a change that would actually come 
from your medical reports of injuries, have you seen changes in 
that through the enhancement of the parachute suspension, 
lighter armor and all that? Do you have hard numbers that show 
that?
    Mr. Bechtel. May I yield to the Program Executive Officer?
    Mr. Runyan. Yes.
    General Ostrowski. Sir, I would be happy to answer that 
question. In fact we do. It has decreased the rate of injury by 
over half with respect to our Rangers currently that are using 
the T-11 parachute. The 82nd Airborne was just recently issued 
the parachute and we don't have any numbers from them yet, but 
over half of the injuries have been avoided within our Rangers.
    Mr. Ryan. Thank you very much. Thank you, Mr. Chairman, and 
I yield back.
    Mr. Turner. Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman, and I thank the 
panelists for being here and also for your service, for the 
sacrifice of your families, and also to our senior enlisted who 
play such a critical role in this area and so many others, 
really everything.
    My questions, at least the first couple, are going to 
probably press the envelope because today we are talking about 
acquisition and modernization. I am going to be asking about 
science and technology and some research and development. So if 
we just hit the limits of that, just say so.
    But on the issue of soldier load, one of the things I 
learned when I got back home, we have the College of Nanoscale 
right there in Albany and just learning just the amazing 
possibilities there and with coatings and composites, the 
possibility of that impacting positively the soldier load and 
the efficacy of the protection. I am just interested to know 
from both the Army and the Marine Corps' perspective where you 
are in that research. Thanks.
    General Ostrowski. Sir, I can point out one example that we 
have a nanotechnology facility at Picatinny in New Jersey. That 
facility has done a lot of work with superheating of 
nanotechnology, nanoparticles, if you will, within different 
composites. I recently visited their facility and what I was 
able to see at this current time with respect to the state of 
the art of the technology, they are able to create a 6-inch 
disc, plate if you will, again, not the size of a body armor 
plate but a 6-inch size, literally half to a third of the 
weight of what you would think it would be. When you pick that 
disc up it is that light. It is clearly leap-ahead technology 
with respect to both penetration capabilities, as a penetrator, 
and hopefully also as a defeater of rounds coming towards us. 
So that is one area that we are focusing on as a leap-ahead 
kind of capability.
    In terms of the science and technology realm elsewhere, 
again, for the last 11 years at war we did exactly the right 
thing by providing what was available now and getting it out 
there quickly to our soldiers. We now have an opportunity to 
take a step back and determine what really makes sense going 
forward to address all of these issues, to include soldier 
load. Do we create a scalable tailorable system; i.e. the 
soldier protection system, and the Marine Corps has got an 
opportunity just like it that we are coordinating with them on, 
that makes it such that a commander can determine exactly what 
level of protection that soldier will wear for any given 
engagement. Give him options. As a material developer, that is 
our job.
    In addition we have to look at state-of-the-art science and 
technology efforts to get away from soldier load by new and 
innovative approaches. One was mentioned already, robotics. 
Quite honestly, the other one is guaranteed 24/7 aerial 
resupply. We have the ability to use our current precision-
guided parachutes that we have, except that the guidance 
systems are very bulky. If we can cut the weight of those down 
or make them disposable we could allow soldiers to train with 
them constantly. And when they believe in their resupply they 
will carry less. We all know that a pound off a soldier 
incrementally that we take off of him is not a pound off. They 
will simply replace it with something else because they don't 
know if they will ever get resupplied. If we can guarantee them 
resupply and train with it to the point where they believe in 
it, we might absolutely fix this problem long-term.
    General Smith. I will be very brief so General Kelley can 
talk perhaps about the Office of Naval Research. But General 
Ostrowski and I actually talked about this just a couple of 
days ago, that his last comment is exactly correct. When you 
can provide--most of what a marine is out there carrying is 
chow, water, ammunition. When there is an absolute guaranteed 
concept that he is comfortable with that he is going to be 
resupplied, they are going to cut a lot of weight. A gallon of 
water, once you include the container, is seven pounds, no 
matter who is carrying it. So once we can that out of a 
marine's pack,that is going to be a tremendous benefit.
    As was stated, it is Boyle's Law of the Grunt, the amount 
of stuff carried will expand to fill the pack provided. And you 
have to be careful of that, because when we live in a harsh, 
light, lethal, and austere environment, and that is kind of our 
bailiwick, you don't necessarily know when the next time you 
are going to have an opportunity for a certain class of supply. 
So fixing the logistics piece, I won't say fixing, enhancing 
the logistics piece does in fact go a long way toward 
lightening the load of the individual rifleman.
    General Kelley. So, sir, Eric is absolutely right in 
pointing to the Office of Naval Research as our essentially 
science and technology lead within the Department of the Navy, 
serving both the Navy and the Marine Corps. Also part of our 
acquisition system on the requirement side and thus the 
material developer as Paul alluded to, we have the Marine Corps 
Warfighting Lab that will go out and actually experiment not 
only with technology, discrete technological solutions, but 
also concepts of operations, to include every element of the 
MAGTF [Marine Air-Ground Task Force].
    One of the things we are finding out is that the more 
mature logistics environment, the weight of what our marines 
are carrying actually goes down, and that was something that I 
don't that would have been intuitive right from the get-go. 
Keeping our eyes wide open, looking for nontraditional sources 
of information to help us solve that problem is something that 
is really important.
    Going to academia is also very important. And also, 
although I know it is tough for industry, I think we do need to 
invigorate industry's discretionary IR&D [Independent Research 
and Development] funds so that they can also come up with some 
solutions, things we may not be thinking about on the military 
side.
    Mr. Gibson. Thank you, Chairman. My time has expired.
    Mr. Turner. Next we have Mrs. Roby. Following Mrs. Roby it 
will be Mr. Castro, Mr. McIntyre, and Ms. Tsongas.
    Mrs. Roby. Thank you, Mr. Chairman, and I too want to thank 
each of you for your service to our country and the sacrifice 
that not only you make, but your families as well. So thank you 
from my family to yours.
    General Ostrowski, as you may know, this committee included 
language in the Fiscal Year 2013 NDAA [National Defense 
Authorization Act] which directed the Army and the Marine Corps 
to determine the feasibility of developing a soldier wearable 
universal controller that could control multiple small unmanned 
aircraft systems, unmanned ground vehicles, et cetera, and I 
understand the Army and the Marine Corps have been working with 
various stakeholders, to include Fort Rucker, which is out in 
the Second District, is part of this development. So I just 
wanted to know if you could provide the status of the 
capability development document for the unmanned systems.
    General Ostrowski. Yes, ma'am, we do have a capability 
development document that is going through the process of 
staffing in the Army. We believe that there is a lot of 
goodness with respect to having a universal controlling 
capability. It speaks to the same thing that we are doing with 
the Nett Warrior program on behalf of PEO Soldier where one 
device does multiple things. I will defer to Pete Bechtel with 
respect to the exact status of where that particular thing is.
    But I will also tell you this, ma'am. We have a requirement 
to come back to this committee and give an update very shortly, 
and Pete will talk to that as well. Pete.
    Mr. Bechtel. Thank you, General.
    Congresswoman, you are right. We are looking at that. We do 
have the requirement and we recognize the NDAA language to come 
back to this committee and others with a report on the 
progress. We have absorbed the universal controller requirement 
into the combat development document for the common robotic 
system individual, or CRSI system. Moreover, there was a 
limited test conducted in October of last year at Fort Benning, 
Georgia, with controls demonstrated for both an unmanned ground 
system and an unmanned aerial system, and we look forward 
coming back to this committee and discussing that with you.
    Mrs. Roby. We will look forward to that as well. Generals 
Kelley and Smith, and I will defer to either one of you who may 
best answer this, but in your written statement you mentioned 
that the Marine Corps established the Squad Integration 
Facility, also known as Gruntworks. And I understand the intent 
of Gruntworks is to emulate the Skunk Works [Lockheed Martin 
Advanced Development Programs] projects, but I wanted to see if 
you could elaborate about the organization and some of the 
projects that they may be working on.
    General Smith. I will be very brief and then pass to 
General Kelley. Gruntworks is a phenomenal facility that is 
relatively, not relatively, it is extremely low-cost, it is 
actually run by a guy that I went to the basics school with 26 
years ago. Its intent is to be a forward thinker and to 
integrate every single thing that we are looking at.
    What we are trying to prevent, it's a cost-avoidance 
mechanism in many ways. If I'm about to buy a new piece of body 
armor, for example, but if it does not properly position a 
marine in the seat of a HMMWV [High-Mobility Multipurpose 
Wheeled Vehicle], for example, or a JLTV [Joint Light Tactical 
Vehicle], then I have no business buying that. So before we 
start down that path, we are going to check to make sure that 
that system that we are about to put on a marine's back allows 
that marine to use everything else. Body armor which does not 
allow a marine to get a proper sight alignment and sight 
picture on a battle rifle has no place for us.
    So that is the intent of Gruntworks, and I have to tell you 
that it is a phenomenal facility. It is right down the road 
here in Quantico. And it is open to all. We would have love to 
have you come down there, it is an open invitation. And I would 
pass over to General Kelley for a couple more details about how 
they are much like Skunk Works.
    Mrs. Roby. Thank you.
    General Kelley. Thank you, ma'am. I had a chance to 
describe the Marine Expeditionary Rifle Squad organization that 
exists at Marine Corps Systems Command. Gruntworks is part of 
that. The marine that Eric is talking about is probably one of 
our greatest thinkers, a guy by the name of Mark Richter. And 
he essentially has built that organization, MERS, Marine 
Expeditionary Rifle Squad, and the Gruntworks right from ground 
zero, and it is probably one of the greatest thinking elements 
of Marine Corps Systems Command. I wish I could take credit for 
all of the things they are doing.
    I can't really improve on what Eric talked about in terms 
of all the things that MERS and Gruntworks is doing. One of the 
things we had a chance to describe was putting marines in their 
gear and then running an obstacle course and then evaluating 
the effects on their body and then being able to evaluate their 
potential for further performance. One of the other unintended 
benefits of MERS is the fact that it has also drawn attention 
not only from the other Services, but also from our coalition 
partners. Great Britain and Australia are very enthusiastic 
about what Gruntworks has done and they are setting up 
organizations very similar to that in their own countries. 
Again, all that information that comes out of things like 
Gruntworks and MERS are the types of things that we share 
across the two Services.
    Mrs. Roby. Thank you so much. My time has expired.
    Mr. Turner. Mr. Castro.
    Mr. Castro. Thank you, Chairman, and thank you gentlemen, 
both for your service to the country and for your testimony 
here today.
    My question has to do with the involvement of the soldiers 
in making adjustments to equipment and to gear. What is the 
feedback loop, the channel of communications between the 
everyday soldiers and the folks who are making decisions about 
what kind of equipment and gear they are going to be using?
    General Ostrowski. Sir, we have numerous venues to allow 
those opportunities to occur. One of our most highly publicized 
is the Network Integration Evaluation at White Sands and Fort 
Bliss. It is there that we have the opportunity to have 
soldiers running through all of the operational venues that we 
have in our Army focusing on the network, but branching out 
well beyond that to include vehicles and other things.
    In addition, as part of our normal acquisition process we 
do have operational testing events where our soldiers have the 
opportunity to use the equipment in an operational setting 
environment, and that testing is controlled in a manner such 
that we can get that feedback on a continual basis.
    But even prior to that one of the things that we are doing 
now is ensuring that our soldiers within PEO Soldier, within my 
organization, that our soldiers are part of our source 
selection and evaluation boards and that we have soldier touch 
points as a particular item is being developed to ensure that 
the soldiers are giving input as to whether or not we are on 
the right track with that. That is a continual process that we 
are doing now and I think it is the right way to go.
    General Smith. Sir, when we build a requirement for any 
piece of equipment, the first thing that happens is, we call 
him a CIO, a capabilities integration officer, those that work 
for me, go out to the operating forces, 1st Marine Division, 
2nd Marine Division, 3rd Marine Division, 1st Marine Aircraft 
Wing, what have you, and we sit down with the operating forces, 
those who are going to use that equipment, and we say what it 
is that you need this thing to do? How much can it possibly 
weigh? And they get input from the ground up before we actually 
set the requirement, what is the most you can weigh?
    Then, as General Ostrowski said, we also do operational 
test and evaluation, which we spoke about a little bit earlier, 
that those same individuals who gave us the initial requirement 
are the ones who get to test that, whenever possible. But lance 
corporals are basically interchangeable; East Coast or West 
Coast, they will speak their piece and speak their mind to you. 
So we get that input from the ground up and then we let those 
same individuals go out and test that equipment. And that 
ensures they are getting what they need.
    I will say that sometimes they don't get what they want, 
and that is a very distinct difference, but we are in the 
business of providing marines what they need, not necessarily 
what they want, in that this is the piece of equipment that is 
going to best perform, best protect you, and we attempt to have 
a standard across the service so that we don't have to go 
inspect 14 different types of body armor, what have you.
    Mr. Castro. And then--go ahead, General.
    General Kelley. Sir, I was just going to say feedback loop 
is absolutely the right term. And I don't care who you are, if 
you are a general officer or a PFC [private first class], you 
had better be prepared for the answer because it may not be 
what you want to hear, just like what Eric said.
    I think one of the things that is important, trade shows 
are very important venues for our young marines to get a chance 
to interact with industry. And it is remarkable. As a general 
officer I get a chance to follow them around and hear their 
interaction. There are some phenomenal ideas out there.
    We have things within the Marine Corps called OAGs, I am 
sure that Paul has the same thing. They are operational 
advisory groups. That is absolutely direct feedback from folks 
that just came from theater. Even on the base where General 
Smith and I live there is a base newspaper called The Century. 
There is typically an advertisement in there on a Web site 
where folks from the fleet can send in their feedback direct to 
Eric and his boss, General Mills. All it takes is 
participation.
    Mr. Castro. Sure. Then I have less than a minute left on my 
time, but perhaps for the record you all might submit an answer 
to this. But the Nation has just spent more or less 10 years at 
war with two wars, with significant boots on the ground, and my 
question is essentially with respect to equipment and gear and 
the issues that we have discussed today what the most valuable 
lessons have been that we have gleaned from our experience in 
Afghanistan and Iraq?
    [The information referred to can be found in the Appendix 
on page 63.]
    Mr. Bechtel. Congressman, may I attempt a quick answer at 
that?
    Mr. Castro. Sure.
    Mr. Bechtel. We have relied, to your previous point, on 
soldier innovation, commander needs on the ground to use rapid 
fueling initiatives, most notably through our rapid equipping 
force to rapidly get and meet the operational needs. Moreover, 
we have had our Army Test and Evaluation Command conduct some 
22 forward operational assessments where soldiers are quite an 
important part of that. That helps inform not only program 
record, moving nonstandard equipment into sustainment to keep 
for the long haul, but it also helps inform our soldier 
enhancement program, an important legislative innovation that 
keeps us moving forward, keeps a soldier the centerpiece for 
modernization.
    Mr. Castro. Thank you.
    Mr. Turner. Mr. McIntyre.
    Mr. McIntyre. Thank you very much. Thank you, gentleman, 
for your service and your patience late in this afternoon. I 
have two or three quick questions I will try to ask and see if 
you can give straightforward answers on.
    One is a recent GAO [Government Accountability Office] 
study highlights the challenges that we faced with respect to 
combat uniforms and camouflage. This study made many 
recommendations that the Services largely concurred with. Can 
you provide us an update on the camouflage program and 
associated combat uniform programs? And in that if you can tell 
us is there a requirement to continue to improve the combat 
clothing worn by our warfighters, both the base uniform and the 
flame-resistant variant.
    General Ostrowski. Yes, sir. We have got to the point of 
the end of testing with respect to the phase 4 camouflage 
program within the Army and what we have learned is that a 
family of uniforms, and by ``family'' I mean a uniform that is 
specific to the desert, one that is specific to a woodland 
environment, and one that can be used in the transitional 
between the two, outperform a single pattern universal 
camouflage pattern if you will each and every time. We have 
learned that.
    Today at 1530 we will bring in the test results of over 
120,000 data points gathered in a uniform test that is 
unequaled with respect to Department of Defense, and we are 
bringing those results to the Chief of Staff of the Army for 
his guidance going forward.
    I will tell you, sir, that we also for every soldier 
deployed forward, we provide them with fire-retardant uniforms. 
Every single soldier. The cost of a fire-retardant uniform is 
over twice that of a regular uniform that we wear back here 
from the CONUS perspective, but each and every soldier moving 
forward, going forward, wears a fire-retardant uniform.
    Mr. McIntyre. Thank you. I understand the Army will 
announce a new camouflage program. When you talked about the 
three variants, this is the actual program you are talking 
about and how the results are. How are these uniform programs 
dealt with in the budget? Do you have what you need in the 
budget?
    General Ostrowski. Yes, sir. We have base funding, 
operations and maintenance funding for the camouflage program 
within our current budgets going forward to include fiscal year 
2014.
    Mr. McIntyre. Okay. And would you like to inject anything 
from the Marine Corps, General?
    General Smith. Sir, just that the camouflage utility 
uniform, we have a desert and a woodland pattern as well. We 
are very, very comfortable with it. With regard to the ability 
to adjust, I believe you asked to certain environments, a good 
example of both our ability and our need to remain flexible, 
our Commandant was recently out in the Pacific speaking to 
marines up in the northern training area on Okinawa. They had 
been out there for about 3 weeks, a very, very wet tropical 
clime, and they said, sir, these uniforms are not drying out. 
It has not been a problem for the past 10 years, having to 
worry about them being dried out. And the Commandant said we 
got to fix that. So he has asked General Kelley and some of his 
crew to come up with a uniform that finds the right balance 
between flame retardancy, durability, but the ability to dry 
quickly, so that as we rebalance in the Pacific we don't have 
marines who are suffering through wet utilities that may stay 
wet for days on end.
    Mr. McIntyre. And what is the sustainment requirement for 
these uniforms with regard to the future and how long do you 
think the typical uniform worn back here as opposed to the 
flame retardant for those forward deployed will last?
    General Ostrowski. Sir, typically we see a uniform in the 
theater go about 120 days before it needs to be replaced. 
Obviously, depending on what the soldier is doing in CONUS, 
back here in the United States, it depends on how long the 
durability, the lifespan of that particular uniform is. But 
forward, about 120 days is what we are getting on average.
    Mr. McIntyre. How about in the marines?
    General Smith. Sir, we send the marines currently into 
Afghanistan with FROG [Flame Resistant Organizational Gear] 
gear, flame resistant outer garment. We will send them in, and 
a combination of about four sets will last that marine for 7 
months. One or two of those sets may come back in a usable 
manner. But 7 months deployment, he is going to go through a 
good three sets while he is in theater. And they are very 
operational, but because of the flame retardancy they do not 
have the same durability. But that was a wise trade I think for 
us in those environments.
    Mr. McIntyre. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Turner. Next we go to Ms. Tsongas, and then after that 
for a round two. We will have a limited round 2, which will be 
Ms. Sanchez and Mrs. Roby.
    Ms. Tsongas. Thank you, Mr. Chairman Turner. Although I am 
no longer on this subcommittee, it was my on honor to serve on 
it for several years. So thank you, Mr. Chairman and Ranking 
Member Sanchez, for allowing me to participate today. It was a 
hearing when I was on this committee I looked forward to 
because of all the tremendous work you do just to make sure we 
are equipping our soldiers in the best possible way given the 
many challenges they confront.
    Last year the House included language in the National 
Defense Authorization Act encouraging the continued development 
of body armor systems designed for women, and as noted in your 
testimony, General Ostrowski, the Army has led the way on this 
effort. I have been briefed on the new improved outer tactical 
vest several times. I have actually had an opportunity to try 
it on and I think the improvements are tremendous. I have to 
say at the most recent briefing among the many changes to make 
it easier to wear, the thing that impressed me, well, that I 
took the greatest concern from was that prior to the 
adjustments it was very difficult for a woman who was wearing 
the standard issue vest to raise her arm properly in order to 
properly fire a rifle. So beyond the comfort issues and just 
being able to better distribute the weight and all of that, it 
is critically important as women, who now comprise 15 percent 
of the military and with the combat exclusion now moving 
forward, that women are adequately protected to do the task at 
hand. So I commend you for your work.
    I would also like to commend PEO Soldier and Natick Soldier 
System Center for their work on developing this system. Natick 
is based in my native Massachusetts and has been described by 
some as the crown jewel of the Army, a sentiment which I share. 
It certainly has led the way on body armor and other crucial 
lifesaving equipment for our service members, such as fireproof 
uniforms designed to protect our soldiers from IED blasts in 
Afghanistan.
    I think the other issue that we worry about is the weight 
of body armor, and I am glad to learn from your testimony that 
efforts are ongoing to reduce the weight by 10 percent by the 
fourth quarter of fiscal year 2014. I have heard from both the 
RAND Corporation and representatives from Natick that this is 
about all that is possible in the short term, and I would like 
to thank you all for your effort. But we know we have a lot 
more work to do. The tremendous weight that our soldiers bear, 
the muscular-skeletal injuries that it causes, the impact on 
deployability are things we have to continue to wrestle with. 
These are costs we are going to bear for decades to come if we 
don't get a better handle on it.
    Several new materials are on the horizon for body armor 
such as carbon nanotubes which you alluded to which could 
eventually lead to significant weight reductions of hard armor 
systems. But the RAND Arroyo Center found in their study last 
year on lightening body armor that it would take years of 
sustained research and development funding to achieve the 
breakthroughs that we need.
    My question is, do you have a strategy to achieve 
breakthroughs with new materials for body armor? Can you commit 
to us here that robust funding for these vital systems will 
continue even as we draw down from Afghanistan?
    General Ostrowski. Yes, ma'am. Earlier when the chairman 
asked what my funding line was with respect to body armor and 
personnel protective equipment, I told him that my overall line 
was $185 million across the board of the portfolio of PEO 
Soldier.
    Specifically though with respect to personal protection 
equipment on the research and development line, we have $23.75 
million in the fiscal year 2014 budget request going before the 
Congress. This is in addition to the science and technology 
funding that I don't have the visibility over that is going 
into labs such as Natick for their efforts with leap-ahead 
technology in terms of personal protection equipment.
    Ms. Tsongas. I don't really have enough time, but for the 
record I would be curious as to your thoughts on whether or not 
we should establish an executive agent for body armor, for the 
record. Thank you.
    [The information referred to can be found in the Appendix 
on page 63.]
    General Ostrowski. I think that there is a lot of goodness 
with respect to the ability for the different Services to have 
the flexibility within their mission sets. For instance, the 
United States Special Operations Command has very specific 
requirements based on their mission sets for body armor and 
personal protection equipment. The Marine Corps operates very 
much on the land but also at sea and they have very specific 
requirements with respect to their body armor, although we 
share plates and other capabilities, helmets included. So I 
think that the flexibility that the Services have is one that 
we would want to try to continue as we go forward.
    Ms. Tsongas. I have run out of time. Thank you.
    Mr. Turner. Very good. We will turn to our second round 
beginning with Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. A quick question. 
Well, actually this one is not so quick. This is for the Army. 
This is the rifle competition. So you are dual-tracking it now. 
I want to know where you are with looking for the second part, 
the second track, looking for a new carbine. And the reason is, 
I have been looking at this for a while.
    In 1995 we started the Objective Individual Combat Weapon 
program. After 10 years and $50 million we canceled that in 
2005. Then we were stop again, start again, stop again, start 
again. This M4 replacement issue has been going on and on. In 
2009 we had the study from the Center for Naval Analyses where 
they surveyed our troops coming back from Iraq and 20 percent 
of them said they had a complete and total jam of their rifle.
    The reason I bring this up is because over time when I talk 
to troops, and we identified the armor early on, we identified 
the MRAP [Mine Resistant Ambush Protected] vehicle issue going 
on. And this is another one of those issues that when I talk to 
our military who have gone to Iraq or Afghanistan, the number 
one issue they talk about is the jamming of their rifle.
    In 2010 the Army did a study at Aberdeen ATC. They tested 
four rifles, the M4, the SCAR [Special Operations Forces Combat 
Assault Rifle], the HK416, and the XM8. It tested in particular 
with respect to the dust chamber reliability; i.e., how does 
our weapon jam, and the M4 was 800 percent less reliable than 
the HK416, and nobody disputed those facts.
    So my question is, what are we doing about this? What are 
we doing to take a look at a more reliable weapon for our 
soldier?
    General Ostrowski. Yes, ma'am. The M4 was first introduced 
as early as 1990 within our Army and since then we have made 
over 92 separate adjustments and modifications to that weapon 
system to improve accuracy, reliability, and so forth. Each one 
of these changes has brought about a much better weapons system 
than we ever had before.
    The original requirement for the M4 was a mean rounds 
between stoppages of 600 rounds. Our recent testing--and that 
is basically three basic loads. So 7 magazines times 3 of 
those, 3 of those loads, 210 rounds, so basically 600 rounds 
would be 3 basic loads of ammunition before you got a single 
failure. Our recent testing in 2010 with the same weapon and 
the same ammunition, the M855 ammunition, revealed 3,592 rounds 
between stoppages. That is a 6 times increase over the original 
requirement of 600 rounds between stoppages. So the weapons 
that we carried back in 2001, 2003, and 2004 are not the same 
M4s that we are carrying today in terms of reliability because 
of all the improvements that we made on that weapons system.
    We also went out to industry and we asked industry through 
a source selection called the Individual Carbine program to 
determine whether or not industry could provide us with a 
weapons system that was as accurate, as reliable, and was 
compatible with our current optics and also had a life-cycle 
cost that was within a boundary that we have established now 
for the M4. And that competition is ongoing. It has completed 
phase 2 testing with respect to the Individual Carbine program 
and the source selection authority has been given all of the 
testing material with respect to deciding whether or not any of 
the weapons goes forward into phase 3 of the competition.
    Ms. Sanchez. So does that mean you are going to have a 
competition? You are having a competition? Where exactly is 
that competition? I ask because you mentioned that, and I 
understand that we had this rifle even in the 1980s. I get 
that. And I understand that you make changes to it. And I have 
no problem with Colt, by the way. I don't have a dog in this 
fight.
    My fight is to make sure that to the extent possible we 
have something that really, really works well on all fronts for 
our soldiers. And when they are telling me, when you have a 
study that says 20 percent of them said their weapons 
completely and totally jammed on them, and you have your own 
study out of the Army that says that there is a more reliable 
weapon out there, maybe, then I think we need to make sure that 
we are really checking this and having this competition move 
forward. And the fact that this has been going on since 1995 
tells me that there is a lot of politics in this. I don't have 
a gun manufacturer in my district. I just want the right thing. 
So are you or are you not truly competing this?
    General Ostrowski. Yes, ma'am, we are absolutely competing 
it. The competition began with phase 1 in October of 2011 and 
we have been testing the weapons system through a phase 1 
process, which was to look at whether or not the weapons that 
were offered by vendors were compatible with our optics and so 
forth, whether they were within the length and the weight 
standards that we established for the competition. And then we 
moved on to a phase 2, and phase 2 was to test the accuracy of 
the weapon, the dispersion, if you will, of the rounds as they 
go downrange, and also to test the reliability of the weapons 
through some environmentals as well as just temperate. And that 
data has been the data that we have now compiled and is before 
the source selection authority to determine whether or not go 
into a phase 3. The source selection authority can take as many 
as three weapons forward into phase 3, as long as they passed 
all of the requirements necessary in phase 2.
    Ms. Sanchez. And what is the timeline on that, just so I 
can keep my eye on it, because this isn't going to go away.
    General Ostrowski. No, ma'am. If the source selection 
authority decides to move forward with a phase 3 it will run 
from the time now as the decision is imminent until the fourth 
quarter of this year, this fiscal year.
    Ms. Sanchez. The fourth quarter?
    General Ostrowski. Yes, ma'am. At that point, if there is a 
winner of the competition, then that will go before the 
Secretary of the Army in a cost-benefit analysis and a side-by-
side comparison with the M4. The accuracy will be compared 
side-by-side, the reliability will be compared side-by-side, 
the cost, life-cycle cost side-by-side, as well as the 
compatibility side-by-side.
    Ms. Sanchez. Great. Thank you for that answer. Thank you 
for your indulgence, Mr. Chairman.
    Mr. Turner. We have Mrs. Roby and then Mr. Cook and that 
will end our round two. Mrs. Roby.
    Mrs. Roby. Thank you, and I will be very brief. I have one 
question for Generals Kelley and Smith, and as I begin I am 
going to defer to each of you to determine who is best to 
answer. But last year General Amos identified expeditionary 
energy as one of the six pillars of modernization in the Marine 
Corps and I understand that there have been numerous advances 
since that time.
    Would you update us on that program? Where has it been 
implemented and whether the Marine Corps is achieving any 
discernible efficiencies in power consumption?
    General Smith. Ma'am, thanks for the opportunity to answer 
that. There is sometimes confusion when we say expeditionary 
energy in what we are talking about. What we are talking about 
as infantrymen is the ability for a young lance corporal to 
carry less gear, less weight.
    So when I was forward-deployed in Afghanistan in places 
like Sangin we had spaces and greens, a couple of systems that 
are solar based, to bring in power so we didn't have to fly in 
or drive in or carry extra batteries. So we used that. Less 
fuel for a generator because it is now solar-powered.
    Expeditionary energy is all about taking a load off of the 
young 19-year-old lance corporal who is out there carrying a 
rifle and a full pack. So we are going to continue to do that. 
We have used it to great effect in Afghanistan and we really 
have no intention of turning back the clock here. We are going 
to proceed forward and push as much as we can toward 
expeditionary energy so we can further reduce the weight.
    Every battery you save or every gallon of fuel, it is not 
about the gallon of fuel, it is about the combat logistics 
patrol that would have otherwise had to drive out to that base 
to provide that fuel. Many of our causalities come from our 
logistics marines who are taking fuel and water and ammunition, 
et cetera, out to those forward warfighters.
    So that is what we are doing. We have used it to great 
effect in Afghanistan and intend to continue. I will yield over 
to General Kelley.
    General Kelley. So, ma'am, last year we had a chance to 
talk to you about the weight of batteries that were saved say 
on a 3-week patrol, and that was on the order of about 700 
pounds. That was probably the best metric that we had at that 
point. That is pretty significant.
    I also think that General Smith brought up a really good 
point about the confidence that young marines get in these 
systems to help save power and not have to rely on resupply. 
One of the biggest things that we have done since last year, 
having testified here as well, and that has really changed the 
culture of what it means to be expeditionary and energy-
conscious.
    So we have the things like spaces and greens that are now 
part of the kit as folks deploy. But we have also looked to 
other drains on energy, shelter liners, LED [Light-emitting 
Diode] lights versus the conventional lights that we have had 
in the past. General Smith brought up a good point about water. 
We are now getting ready to deploy individual water 
purification tools for our marines to go and take care of their 
own water needs. So we are looking at everything right now, 
ma'am.
    Mrs. Roby. Thank you very much.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Turner. Thank you. Mr. Cook will have the last 
question.
    Mr. Cook. Thank you very much, and thank you. I know it has 
been a long afternoon and I should have thought of this 
question earlier. By the way, that means no more Halazone 
tablets, I guess, for the infantry. My age is showing.
    I was on the Foreign Affairs Committee and we were talking 
about terrorism. We were talking about Syria and the subject 
came up about sarin and VX [nerve agent]. And then as I was 
listening about equipment and clothing, and right away I 
thought MOPP 4 [Mission Oriented Protective Posture Level 4: 
all chemical protection worn]. Where are we in terms of MOPP 4 
conditions, God forbid, if we have to go in that environment? 
Because as you know, anybody who has been in that it doesn't 
take long before you are ready to pass out. So if anyone could 
address that, and that is the only question.
    Once again, I want to thank you all for your great service 
and for your patience this afternoon. I know it has been a 
great hearing.
    Mr. Bechtel. Congressman, thank you. I will take a first 
attempt, if I may. I am glad you brought that up because the 
Army is looking hard at the mission of combating weapons of 
mass destruction very broadly both in terms of our CONOPS 
[concept of operations] and our operations for sensitive site 
exploitation, for active and passive defense, decontamination 
abroad, but even more important here in the homeland.
    The personal protective equipment as part of that goes 
right to the center of that. And we are working through 
challenges of compatibility, for instance, with the M53 
migration to the M50 joint protective mask with SCBA [self-
contained breathing apparatus] gear and other sort of 
commercial and commercial-off-the-shelf equipment to help us 
aid in defense of civil authorities here at home, first 
responders and so forth. That will be the same condition, sir, 
as if we have to go into contested hot zones or warm zones 
overseas.
    So our Maneuver Support Center of Excellence at Fort 
Leonard Wood and the CBRN [Chemical, Biological, Radiological, 
and Nuclear] School in particular are looking through those as 
part of the joint community to ensure we have both 
compatibility, but the most modern systems, negative plus 
positive over pressure conditions and so forth. So we are 
looking hard at that.
    General Smith. Sir, we are very fortunate in that we have 
got a unit called CBIRF, the Chemical, Biological Incident 
Response Force located very close to here, and that unit, that 
is what they do. So they are constantly using the gear that is 
provided, the suits, the masks, et cetera.
    I will say, sir, as you know, anyone who references 
Halazone tablets is okay with me, and we can probably speak 
very candidly that there is no easy way to operate in a 
contaminated environment. We can mitigate as much as we can, 
but the real issue is why not to have it in the first place, 
or, two, to remove the forces as quickly as possible or rotate 
them with others. There is no easy way to operate in that 
environment, especially carrying the loads that we are still 
going to have to carry because it is still a combat 
environment.
    We do have a pretty high confidence level in the gear that 
we have. It is jointly held gear. It is very effective. And, 
again, our good fortune to have CBIRF within the Marine Corps 
is that we get a near daily assessment of the gear that is 
currently out there and fielded and so we have a pretty good 
feel for when it may fall below the standards, and right now we 
are pretty comfortable with where we are, sir.
    Mr. Turner. Mr. Cook, thank you.
    Gentlemen, I want to thank you for your participation. You 
had a wide range of questions today and we appreciate both your 
expertise and dedication. This is an issue that I think goes to 
the heart of what everyone wants to make certain we are doing 
right thing. General Kelley, I appreciated your further 
elaboration on the issue of how do we have to look at these in 
part as systems so that we can try to have some greater 
advance. And General Ostrowski, I appreciate your acknowledging 
the research and development fund that in fact Congress was 
very active in establishing that hopefully can be a bridge to 
where we are going to find a balance to get both the 
effectiveness that you have obtained in protecting our men and 
women in uniform, but also with some increased performance.
    So, gentlemen, thank you for your participation today.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]

=======================================================================

                            A P P E N D I X

                             April 11, 2013

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 11, 2013

=======================================================================


    [GRAPHIC] [TIFF OMITTED] 80755.001
    
    [GRAPHIC] [TIFF OMITTED] 80755.002
    
    [GRAPHIC] [TIFF OMITTED] 80755.003
    
    [GRAPHIC] [TIFF OMITTED] 80755.004
    
    [GRAPHIC] [TIFF OMITTED] 80755.005
    
    [GRAPHIC] [TIFF OMITTED] 80755.006
    
    [GRAPHIC] [TIFF OMITTED] 80755.007
    
    [GRAPHIC] [TIFF OMITTED] 80755.008
    
    [GRAPHIC] [TIFF OMITTED] 80755.009
    
    [GRAPHIC] [TIFF OMITTED] 80755.010
    
    [GRAPHIC] [TIFF OMITTED] 80755.011
    
    [GRAPHIC] [TIFF OMITTED] 80755.012
    
    [GRAPHIC] [TIFF OMITTED] 80755.013
    
    [GRAPHIC] [TIFF OMITTED] 80755.014
    
    [GRAPHIC] [TIFF OMITTED] 80755.015
    
    [GRAPHIC] [TIFF OMITTED] 80755.016
    
    [GRAPHIC] [TIFF OMITTED] 80755.017
    
    [GRAPHIC] [TIFF OMITTED] 80755.018
    
    [GRAPHIC] [TIFF OMITTED] 80755.019
    
    [GRAPHIC] [TIFF OMITTED] 80755.020
    
    [GRAPHIC] [TIFF OMITTED] 80755.021
    
    [GRAPHIC] [TIFF OMITTED] 80755.022
    
    [GRAPHIC] [TIFF OMITTED] 80755.023
    
    [GRAPHIC] [TIFF OMITTED] 80755.024
    
    [GRAPHIC] [TIFF OMITTED] 80755.025
    
    [GRAPHIC] [TIFF OMITTED] 80755.026
    
    [GRAPHIC] [TIFF OMITTED] 80755.027
    
    [GRAPHIC] [TIFF OMITTED] 80755.028
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 11, 2013

=======================================================================

      
             RESPONSES TO QUESTION SUBMITTED BY MR. CASTRO

    General Ostrowski and Mr. Bechtel. We have relied, to your previous 
point, on soldier innovation, commander needs on the ground to use 
rapid fueling initiatives, most notably through our rapid equipping 
force to rapidly get and meet the operational needs. Moreover, we have 
had our Army Test and Evaluation Command conduct some forward 
operational assessments where soldiers are quite an important part of 
that. That helps inform not only program record, moving nonstandard 
equipment into sustainment to keep for the long haul, but it also helps 
inform our soldier enhancement program, an important legislative 
innovation that keeps us moving forward, keeps a soldier the 
centerpiece for modernization. [See page 19.]

    General Smith and General Kelley. Since combat operations began in 
Afghanistan and Iraq, the Marine Corps has managed more than seven 
hundred requests for mission-critical capabilities through our ``Urgent 
Needs Process''. Each of these requests represents a case in which our 
combat experience has proven the need for an essential warfighting 
capability that our deliberate process did not fully anticipate. 
Through the Urgent Needs Process, we've been able to learn valuable 
lessons for the future and begin adapting our forces while in combat, 
without waiting for the next budget's planning cycle to begin.
    Looking back across all of our Urgent Needs, a few trends become 
clear. First, all elements of our future force must be capable of 
maneuvering across the entire battlespace in an environment threatened 
by what we now call Improvised Explosive Devices (IEDs). This includes 
our combat service and combat service support units, as well as our 
ground combat units, and requires a wide variety of capabilities to 
both detect and defeat these devices. Second, and closely related, 
we've learned that we need expanded capabilities for Persistent 
Intelligence, Surveillance, and Reconnaissance (P-ISR)--the ability to 
see what's happening in the battlespace across extended periods of 
time, and then to share that information with every element of the 
force, down to the very lowest tactical level. These capabilities will 
continue to require advancements in both our sensor technologies and in 
the availability of the electronic ``pipes'' that allow us to share 
data. Finally, we've learned that future combat is likely to demand 
more widespread use of precision weapons, launched from both surface 
and air, which allow us to target only our adversaries, reducing 
collateral damage and therefore accelerating the speed at which our 
rules of engagement allow us to strike the enemy.
    Taken together, these lessons show us that the nature of warfare 
hasn't really changed: we still need to be able to see, shoot, move, 
and communicate. The tools with which we accomplish those tasks are 
changing rapidly, however, and the Marine Corps will continue to 
aggressively learn from our combat experiences to ensure that 
tomorrow's Marines are equipped to fight and win, wherever our Nation 
sends us. [See page 19.]
                                 ______
                                 
             RESPONSES TO QUESTION SUBMITTED BY MS. TSONGAS
    General Ostrowski and Mr. Bechtel. I think that there are a lot of 
positives with respect to the ability for the different services to 
have the flexibility within their mission sets. For instance, the 
United States Special Operations Command has very specific requirements 
based on their mission sets for body armor and personal protection 
equipment. The Marine Corps operates very much on land, but also at sea 
and they have very specific requirements with respect to their body 
armor, although we share plates and other capabilities, helmets 
included. So, I think that the flexibility that the services have is 
one that we would want to try to maintain as we go forward. [See page 
22.]

    General Smith and General Kelley. When it comes to requirements, 
the Marine Corps and the Army collaborate wherever their mission 
profiles converge. The Marine Corps is a light infantry force that 
primarily operates dismounted and its units are not tied to any 
specific mobility platform. This drove such features as the quick 
release and the differences in cut of the Improved Modular Tactical 
Vest (IMTV) and Plate Carrier (PC) as compared to the Army's Improved 
Outer Tactical Vest (IOTV) and plate carrier. The Army and Marine Corps 
need the flexibility to develop body armor systems that meet specific 
requirements associated with their distinct mission profiles.
    The Marine Corps and the Army share the same ballistic 
specification. The fit and form reflect the different service needs and 
desires from body armor systems. The Army and Marine Corps Body Armor 
Program Offices [PM SPE (Special Purpose Equipment) and PdM (Product 
Manager) ICE (Individual Combat Equipment)] work closely to coordinate 
their efforts on research, body armor specifications, design 
improvements and weight reductions. Our combined efforts seek to reduce 
duplication of research and invest in the most promising technologies. 
All our advances in body armor and efforts are shared during our 
regular Cross Service Warfighter Equipment Board meeting.
    An example of a mission success of sharing and coordination is the 
Enhanced Combat Helmet (ECH) helmet. This effort started with an Army 
R&D effort which the Marine Corps used as the foundation for initiation 
of the ECH program. The close coordination and involvement of the Army 
in the program with funding and engineering expertise has been critical 
to the ECH's progress to date. Additionally, both the Army and Marine 
Corps are pursuing improved ballistic protection systems. The Army's 
Soldier Protection System Capabilities Development Document (CDD) will 
be the overarching document for ballistic protection requirements that 
will be reflected in individual Capability Production Documents (CPDs). 
The Army intends to start fielding the Scalable Protection System (SPS) 
in FY15, and is primarily focused on weight reduction. The Marine Corps 
will take a longer approach that will allow technology to mature to the 
level necessary to achieve our goals in protection, integration, and 
mobility, which we view as being equal in importance in a true next 
generation system. Additional Key Performance Parameters (KPPs) will be 
emphasized by defining mobility parameters using the Marine Corps Load 
Effects Assessment Program (MCLEAP), and integration parameters by the 
Integrated Product Team (IPT) within the Modular Scalable Protection 
System (MSPS) IPT (which is chartered). [See page 22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 11, 2013

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. The Soldier Protection System (SPS) is a clear step 
forward in terms of integrating the systems worn and carried by our 
warfighters and balancing capabilities like protection and mobility 
while reducing weight. I commend this effort, but I am concerned that 
it may not go far enough. We're told that uncertainties regarding 
procurement volumes, intellectual property ownership, and R&D timelines 
have caused would-be industry competitors not to participate in this 
program. While many programs have collapsed because they have 
unrealistic requirements and schedules and some like JSF are 
constructed to be ``too big to fail,'' I am concerned SPS may have the 
opposite problem . . . meaning it could be too small to succeed. We 
need this program to succeed and bring as much weight reduction and 
capability to the warfighter as possible. The threshold weight 
reduction for SPS is 10%? Could greater reductions be achieved? What 
percentage of the total force do you plan to field this system to? How 
was the percentage determined? How was the long-term viability of the 
industrial base considered when constructing the program? What is your 
view of current participation and competition emerging from the 
industrial base for this program? What can be done to ensure it 
succeeds?
    General Ostrowski and Mr. Bechtel. [The information was not 
available at the time of printing.]
    Mr. Jones. The MSPS is the USMC's version of SPS. We understand 
this takes a slightly different approach focusing on mobility and not 
weight reduction. Since the USMC is a smaller force, obviously this 
program may have an even harder time attracting industry investment 
than SPS? Would a joint program yield more industry participation and 
competition? How different are USMC requirements from the Army's? What 
percentage of the total Corps will get this system? How was that 
percentage determined? At this stage of the program, do you have a view 
of potential participation and competition that will emerge? Can you 
describe how you are collaborating with the other Services and with 
Industry to get the desired innovation and production results?
    General Ostrowski and Mr. Bechtel. This question is best answered 
by the Marine Corps.

    Mr. Jones. The Soldier Protection System (SPS) is a clear step 
forward in terms of integrating the systems worn and carried by our 
warfighters and balancing capabilities like protection and mobility 
while reducing weight. I commend this effort, but I am concerned that 
it may not go far enough. We're told that uncertainties regarding 
procurement volumes, intellectual property ownership, and R&D timelines 
have caused would-be industry competitors not to participate in this 
program. While many programs have collapsed because they have 
unrealistic requirements and schedules and some like JSF are 
constructed to be ``too big to fail,'' I am concerned SPS may have the 
opposite problem . . . meaning it could be too small to succeed. We 
need this program to succeed and bring as much weight reduction and 
capability to the warfighter as possible. The threshold weight 
reduction for SPS is 10%? Could greater reductions be achieved? What 
percentage of the total force do you plan to field this system to? How 
was the percentage determined? How was the long-term viability of the 
industrial base considered when constructing the program? What is your 
view of current participation and competition emerging from the 
industrial base for this program? What can be done to ensure it 
succeeds?
    General Smith and General Kelley. [The information was not 
available at the time of printing.]
    Mr. Jones. The MSPS is the USMC's version of SPS. We understand 
this takes a slightly different approach focusing on mobility and not 
weight reduction. Since the USMC is a smaller force, obviously this 
program may have an even harder time attracting industry investment 
than SPS? Would a joint program yield more industry participation and 
competition? How different are USMC requirements from the Army's? What 
percentage of the total Corps will get this system? How was that 
percentage determined? At this stage of the program, do you have a view 
of potential participation and competition that will emerge? Can you 
describe how you are collaborating with the other Services and with 
Industry to get the desired innovation and production results?
    General Smith and General Kelley. The Modular Scalable Protection 
System (MSPS) is the Marine Corps initial effort to develop a fully 
integrated system of ballistic protective equipment for the individual 
Marine. The MSPS includes protection for the head, eyes, hearing, 
torso, pelvic region, and extremities and will be developed with a 
balanced emphasis on protection, integration, and mobility. We want to 
develop protections systems that are equal to or greater than our 
current capability but at reduced weight. Moreover, with the MSPS we 
seek to improve the ergonomics of the elements within the MSPS to 
improve load carriage, flexibility, and bulk over current systems. We 
are also looking at novel approaches to integrate load bearing 
capabilities (packs and pouches) and power/data management for the 
individual Marine.
    The focus on returning mobility to the individual Marine will 
incorporate the Marine Corps Load Effects Assessment Program (MCLEAP) 
as a means to baseline our current systems, provide a mobility metric 
for the MSPS requirement, and measure improvements in mobility provided 
by prototypes for the MSPS.
    The Modular Scalable Vest (MSV) is the torso armor component of the 
MSPS and is currently under development. The focus of the MSV program 
is to provide increased protection levels with no weight costs while 
enhancing Marine mobility and combat effectiveness through smart load 
management and integration capabilities. The MSV will provide the 
capability to scale protection levels in a single system, a load 
distribution and carriage capability, and inherent integration 
capabilities with the USMC Pack System. The MSV will utilize both a 
lighter weight soft armor, which offers 10-15% weight reductions over 
current soft armor, and the Enhanced Capability Small Arms Protective 
Inserts (EC SAPIs), which provide increased ballistic protection at 
current Enhanced Small Arm Protective Inserts (ESAPIs) weight. Both of 
these improvements were developed in coordination with the Army and 
will be resident within their future systems as well. We plan to begin 
fielding the EC SAPIs in Fiscal Year (FY) 2014 and the MSC in FY2016.
    Would a joint program yield more industry participation and 
competition?
    There is significant collaboration between the Army and the Marine 
Corps now and also significant participation and competition across the 
segment of industry interested in these capabilities with no conclusive 
evidence that a Joint program would influence greater competition or 
yield increased support to the warfighters in each of the Services. The 
response to the Marine Corps' effort to develop concept demonstrators 
for the MSV has been enthusiastic and promising. Recently, there has 
been increased interest on the part of the Army in the Marine Corps 
approach to the MSPS as a whole and the MSV specifically and plans are 
being made to test Army and Marine Corps concepts side-by-side. 
Additional interest on the part of industry is sure to result.
    How different are USMC requirements from the Army's?
    The Army and Marine Corps use the same ESAPI plates for hard armor 
protection and the same soft armor materials for torso and pelvic 
protection. The main difference between the Army and Marine Corps 
pursuit of next-gen personal protection systems is in the design and 
cut of our soft armor.
    The Army's Soldier Protection System Capabilities Development 
Document (CDD) emphasizes weight reduction as the primary means to 
return mobility to the individual soldier. However, the Army's CDD does 
not include mobility as a desired attribute and while improved 
integration is an Army goal, it falls subordinate to protection and 
weight reduction. In addition, the Army intends to begin fielding their 
Soldier Protection System (SPS) in FY 2015.
    The Marine Corps intends to take a longer approach to permit 
technology and design to mature to the level we believe necessary to 
achieve our combined goals in protection, integration, and mobility, 
which we consider of equal importance in our pursuit of a next 
generation system. The balance between protection and weight reduction 
are being emphasized by defining mobility parameters and requirements 
using the MCLEAP.
    What percentage of the total Corps will get this system? How was 
that percentage determined?
    Our initial acquisition objectives are intended to support forward 
deployed forces and forces preparing to deploy, approximately 38% of 
the total force, with the MSV and other components of MSPS as they are 
developed. This strategy is driven by the desire to equip our 
warfighters with the most up to date and capable protection systems 
while conscientiously shepherding our limited resources. Limiting 
fielding to deployers optimizes development and design of these new 
systems by directly incorporating user feedback into follow on 
configurations. This approach prevents costly and multiple fieldings of 
incrementally improved protection systems across the force until a 
final, optimized configuration is achieved. For the majority of the 
Corps, currently issued protection systems will be sustained and 
improved periodically through insertions of lighter soft and hard armor 
as technology and resources allow.
    At this stage of the program, do you have a view of potential 
participation and competition that will emerge?
    Using a government intermediary, industry is now actively 
participating in the first round of designs for the Modular Scalable 
Vest (MSV1). Based on the high interest and participation of industry, 
multiple industry partners are interested and capable of participating 
in and competing for the MSPS program.
    Can you describe how you are collaborating with the other Services 
and with Industry to get the desired innovation and production results?
    The Marine Corps intends to use the same plate armor protection and 
the same soft armor materials for torso and pelvic protection as the 
other Services. We also intend to maintain our relationship and 
cooperation with the Naval and Army Research Labs and as the MSPS 
program progresses, we anticipate additional industry partners will 
participate--especially as other MSPS components are developed and 
incorporated into the Marine Corps system-of-systems approach to 
individual ballistic protection.
    The Marine Corps and Army will continue to collaborate in the 
development of requirements and materiel solutions for modular, 
scalable ballistic protection systems to include a head borne system, 
torso protection, pelvic protection, and extremity protection. 
Utilizing Small Business Innovation Research grants, Office of Naval 
Research, and Natick Soldier Research Development and Engineering 
Center, these efforts include the pursuit of improved soft and hard 
armor solutions that provide increased protection at equal or lighter 
weight. The Army and Marine Corps Body Armor Program Offices (PM 
Soldier Protection Equipment and PdM Infantry Combat Equipment) work 
closely to coordinate their efforts on research, body armor 
specifications, design improvements and weight reductions. Our combined 
efforts seek to reduce duplication of research and invest in the most 
promising technologies. All of our advances in body armor and efforts 
are shared during our regular Cross Service Warfighter Equipment Board 
meeting. An example of a mission success of the sharing and 
coordination is the Enhanced Combat Helmet (ECH). This effort started 
with an Army research and development effort, which the Marine Corps 
then used to start the ECH program. The close coordination and 
involvement of the Army in the program with funding and engineering 
expertise has been critical to the ECH's progress to date.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. What programs and/or policies have the military 
departments and/or DLA put in place to sustain and stabilize the 
domestic industrial base for warfighter equipment? How are these 
programs and/or policies being communicated to industry and to what 
effect? Are there any preliminary findings from the ongoing studies on 
the body armor, clothing, and textiles industrial base?
    General Ostrowski and Mr. Bechtel. The Army works closely with the 
Defense Logistics Agency (DLA) with regard to forecasting yearly 
sustainment requirements. The Army forecasts its sustainment 
requirements through the Tank Automotive Command Logistic Support 
Office, which is co-located with DLA Troop Support in Philadelphia. The 
Army defers to DLA for specifics regarding any preliminary findings 
from the ongoing body armor, clothing, and textile industrial base 
studies.
    Mr. LoBiondo. What programs and/or policies have the military 
departments and/or DLA put in place to sustain and stabilize the 
domestic industrial base for warfighter equipment? How are these 
programs and/or policies being communicated to industry and to what 
effect? Are there any preliminary findings from the ongoing studies on 
the body armor, clothing, and textiles industrial base?
    General Smith and General Kelley. The Marine Corps acquires 
equipment in response to a funded and validated requirement. A way that 
the Marine Corps contributes to sustaining the domestic industrial base 
for warfighter equipment is complying with the Berry Amendment. All 
equipment we procure that contains materials covered by the Berry 
Amendment, mostly textiles, are from domestic sources. The Marine 
Corps, specifically Combat Development and Integration (CD&I), develops 
warfighter equipment requirements based on roles and missions laid out 
in Title 10. These requirements are validated by Marine Corps and DOD 
leadership, and are communicated to industry via Marine Corps Systems 
Command (MCSC) through Requests for Proposals and Requests for 
Information.
    The Marine Corps also actively engages and communicates our 
programmatic and technical priorities, needs and future plans in a 
number of forums. We participate in events ranging from broad to small 
platforms. Broad platforms include events like the annual Modern Day 
Marine Exposition and the biennial Advanced Planning Briefing to 
Industry during which the acquisition and funding plans are provided to 
industry. The more finite efforts include venues such as ``Industry 
Days,'' where many individual Marine Corps ground programs offices meet 
with industry throughout the year, giving them an opportunity to meet 
with our acquisition professionals on potential solutions. In addition, 
the Marine Corps recognizes the potential capabilities, innovations, 
and technology solutions that small businesses can offer. MCSC Office 
of Small Business Programs (OSBP) is involved in small business and 
industry outreach events on a weekly basis. MCSC's OSBP participates in 
local and national small business outreach events, performing business 
matchmaking at many of those events, to match the capabilities of small 
businesses with MCSC and Program Manager Officer Land Systems 
requirements. Such events provide great venues for industry to stay 
abreast of opportunities with the Marine Corps acquisition community 
and for the Marine Corps to learn from industry about potential 
solutions. At present, we are not aware of any studies sponsored by the 
Marine Corps related to the industrial base regarding body armor, 
clothing and textiles.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ENYART
    Mr. Enyart. General, how do you incentivize industry to produce 
better equipment if the award decisions are made on price alone?
    General Ostrowski. The Army typically awards contracts where the 
basis for award is Best Value to the Government and not necessarily 
lowest price. Many different criteria are taken into account during the 
source selection process in addition to cost/price. These include 
criteria such as delivery schedule, past contractor performance, and 
technical performance.

    Mr. Enyart. Is there a DOD investment strategy for new materials 
that will provide step change improvements to warfighter equipment?
    General Ostrowski and Mr. Bechtel. Advances in materials science 
have the potential to impact all Army platforms. As such, the Fiscal 
Year 2014 (FY14) basic research investment in materials science is $182 
million, or 43 percent of the Army's total FY14 basic research funding. 
The Army invests in biotechnology, nanotechnology, and Army specific 
domains of materials science including high deformation rates in 
structural and protection materials, energetic materials, electronics, 
and power and energy. Examples include investments in Textile Composite 
Armor, which provides a framework for successful design of lightweight 
textile armor of the future. This research is unparalleled outside of 
the Army and its payoffs include transparent armor lenses that can be 
integrated into eye protection systems. Investments are also being made 
into insensitive munitions and energetic materials for next generation 
small arms weapons that give unprecedented firepower to the Soldier 
(e.g., a 40mm with energetic power greater than a 155mm) and 
environmentally benign materials. Additionally, the Army is investing 
in the capability to design, optimize, and fabricate lightweight 
protection material systems that exhibit revolutionary performance by 
manipulating matter all the way back to the atomic scale. This is a 
``grand challenge'' that pushes the existing high-performance material 
envelope. Payoffs from this research include protection materials with 
33 percent savings in weight of current systems and batteries with 
triple the energy density that can provide 30 percent longer life-times 
at a reduced cost (20-30 percent).
    Mr. Enyart. Can you provide a couple of examples of the most recent 
new products that have significantly reduced the soldier's load? On 
average how often will weight-saving technology refreshes occur across 
the portfolio of items the soldier wears and carries? What are the 
risks to achieving these improvements? Are they being developed with 
overseas contingency operations funds?
    General Ostrowski and Mr. Bechtel. The Army is incorporating 
weight-saving technology that can meet current protection requirements 
into current personal protective equipment (PPE) and other Soldier 
equipment as rapidly as possible. The Army has leveraged new material 
construction and design approaches to reduce the weight of the Improved 
Outer Tactical Vest (IOTV) and Soldier Plate Carrier System (SPCS). The 
current Generation III IOTV, which weighs 31 pounds (lbs) (with plates) 
for a size medium, is four percent lighter than the previous IOTV 
variant. These same approaches are being applied to the SPCS, which 
weighs 23 lbs (with plates) for size medium, in order to reduce the 
weight by three percent. The latest specification for the Advanced 
Combat Helmet (ACH), which currently weighs 3.06 lbs for a medium, 
being procured by Defense Logistics Agency Troop Support for 
sustainment, requires a weight reduction of eight percent. The 
Lightweight ACH, which will also be procured by the Defense Logistics 
Agency Troop Support weighs 2.8 lbs for a size medium. By leveraging 
technology, we were able to achieve weight savings of 6.5 lbs in the 
Nett Warrior program as compared to its predecessor, the Land Warrior. 
As new technology is available, we will continuously strive to reduce 
weight even further to lessen the burden on our Soldiers. Because of 
our rigorous test protocols for all PPE, the risks to achieving these 
improvements are significantly reduced. Our base budget includes 
Research, Development, Test and Evaluation funding for PPE.

    Mr. Enyart. Mr. Bechtel, when you meet with industry, and I assume 
that you do since you were selected as the Army's witness for this 
hearing, how do you answer their concerns about insight into future 
requirements both in performance and quantity? Is this an area in which 
the Army can improve?
    Mr. Bechtel. This is an area where the Army continues to improve as 
we refine our requirements and acquisition processes. We balance the 
requirement for competition against the value of providing Industrial 
Partners better planning information. The Army holds discussions with 
industry focusing on operational requirements, potential future 
capability gaps, and resulting needs in many forums, such as Industry 
Days to exchange information regarding current and upcoming 
initiatives. The Army must ensure a competitive environment; therefore 
the release of information to industry is governed by statute and 
regulation. Materiel quantity discussions actually take place during 
the acquisition phase when the Army provides Requests for Proposals. An 
example of information sharing is the development of the Deployer 
Equipment Bundle (DEB) concept. It is currently being reviewed by Army 
Staff and would provide for modernized equipment and uniforms to 
support approximately 70,000 Soldiers' (or about 15 Brigade Combat 
Teams with enablers) contingency deployment related needs. The DEB 
concept is based on the two most prevalent scenarios currently 
addressed in planning and will provide useful start points for 
discussions about quantity.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Regarding the Army's Soldier Protection System (SPS): 
What percentage of the total force do you plan to field SPS to? What is 
your view of current participation and competition emerging from the 
industrial base for this program? What can be done to ensure SPS 
succeeds?
    General Ostrowski. [The information was not available at the time 
of printing.]
    Mr. Turner. What is the status of the phase 4 camouflage uniform 
evaluation?
    General Ostrowski. The Army recently completed a very comprehensive 
Phase IV Camouflage study, which was the most extensive uniform 
camouflage study ever undertaken--underpinned by science with extensive 
Soldier involvement. The Army designed a scientifically rigorous 
evaluation program, studying the performance of camouflage in a wide 
variety of terrains, vegetation and times of day. Initial decisions and 
recommendations have been provided to senior Army leaders, and the Army 
is now waiting on a final decision announcement and guidance from our 
Army leadership regarding the scope and timelines of potential changes.
    Mr. Turner. In an effort to modernize an item in sustainment, the 
Army put forward a new purchase description for the Army Combat Helmet 
in late 2011 that takes advantage of new material technology to 
significantly reduce the weight of this most critical piece of 
protective equipment. The Defense Logistics Agency was directed to 
acquire the lighter weight ACH variant. Eighteen months since 
contracting action began on this lightweight ACH, still no helmets have 
been procured and fielded.
    Why does there appear to be so much trouble completing a relatively 
minor technology refresh of the ACH that reduces weight from the 
warfighters head to prevent neck and spine injuries and increase 
mobility and combat effectiveness? Is this program representative of 
what can be expected if new technology becomes available for items that 
are in sustainment? What should be done to reform this process to make 
it more flexible and agile?
    General Ostrowski. The Army is able to leverage improvements in 
technology by updating requirements in the product performance of these 
specifications. The Army updated the Army Combat Helmet (ACH) 
performance specification to realize an eight percent weight reduction. 
This performance specification was incorporated into the Defense 
Logistics Agency Troop Support's contracting action for the current ACH 
Solicitation. This contracting action experienced delays due to a 
mandated update to ballistic testing requirements by the Director of 
Operational Test and Evaluation, which resulted in a protest by one of 
the vendors as well as an audit of the new ACH test protocol undertaken 
by the Department of Defense Inspector General. These delays were 
unforeseen and are not representative of new contracting actions in 
regards to advancements in technology.
    Mr. Turner. Does the Army plan to pursue a new handgun and does a 
validated requirement exist for a new handgun?
    General Ostrowski. The currently fielded M9 has been used 
successfully across the full array of mission areas and battlefield 
conditions. No formal complaints or requests for replacements have been 
submitted via the Operational Needs process. Going forward, the Army 
has examined potential improvements to handgun or sidearm capability. 
The Army's intent is to address past assessments that the current M9 
pistol's operational effectiveness does not fully meet Soldiers 
expectations. Lessons learned from the last 10-11 years of combat 
operations identified areas to begin to improve, to include stopping 
power; reliability; lack of integrated rails to allow for mounting of 
lights, lasers and other handgun enablers; lack of suppressors to 
mitigate muzzle flash and noise; and lack of low light sights to 
facilitate target engagement. The Army will balance these needs versus 
the wear out of its existing handgun systems, and thoroughly assess a 
full cost-benefit analysis before making its final decision.
    Mr. Turner. I understand the procurement of the Army Lightweight 
Advanced Combat Helmet, which was originally bid out as a ``lowest 
price, technically acceptable'' (LPTA) solicitation was sent to a 
reverse auction. What benefits are achieved from using reverse auctions 
for critical safety items and personal protection equipment? What are 
your concerns regarding the use of LPTA and reverse auctions for 
critical safety items and personal protection equipment?
    General Ostrowski. Reverse Auction is a pricing tool and takes the 
place of a ``Final Proposal Revision'' request. The utilization of this 
pricing tool allows for the purchase of critical safety items and 
personal protective equipment at the lowest price available. While a 
contract may be awarded to the lowest priced offeror whose proposal has 
been reviewed and considered to be acceptable, the selected 
manufacturer(s) will always be required to meet all performance 
requirements listed in the performance specification and contract. PEO 
Soldier is comfortable with a mixture of Best Value and Lowest Price, 
Technically Acceptable contract strategies based on the preliminary 
developmental efforts that occur prior to every production contract 
award, ensuring that all protective items consistently meet a high 
standard of performance.
    Mr. Turner. I am concerned about the requirements for issuance 
uniforms. I understand that the Department of Defense does not have a 
universal standard for when a soldier, sailor, airman, or marine must 
be issued fire-retardant clothing. For example, Army mounted combat 
crewmen are issued multiple layers of fire-retardant uniforms including 
base layers, combat uniforms, and cold weather outer layers.
    Please explain how the Army determines who is issued what versions 
and components of flame-resistant uniforms and the process by which 
this decision is made to include the decisionmaker? What is the 
sustainment requirement for these uniforms and how is it budgeted?
    General Ostrowski. Fire-resistant (FR) Army combat uniforms (FRACU) 
are provided to deployed Soldiers based on 2008 Army Requirements and 
Resourcing Board (AR2B) guidance. FR uniforms such as the Army Aircrew 
Combat Uniform (A2CU), Improved Combat Vehicle Crewman Coverall (iCVC), 
and Fuel Handler Coveralls are provided to Soldiers in select 
corresponding MOSs through either deployment related equipping efforts 
like Rapid Fielding Initiative (RFI) events or Army Clothing Bag or 
Central Issue Facility (CIF) issue for Military Occupational Specialty 
(MOS) related non-deployment garrison and training use. Soldiers 
performing in an MOS authorized position requiring FR clothing (e.g., 
aviators, combat vehicle crewmembers, fuel handlers, etc.) receive 
sustainment through the Operations and Maintenance (O&M) Base funded 
CIF for non-deployment activities. Deployment sustainment is provided 
through the Overseas Contingency Operations funded Army Direct Ordering 
program or theater CIF's. There are no FRACUs in the sustainment base 
(for all other non-deployed Soldiers).
    Mr. Turner. A recent GAO study highlights the difficulties the 
military services have experienced with respect to combat uniforms and 
camouflage with multiple variants across the Services, different and 
ineffective patterns, different FR materials, a lack of coordination 
within and across the Services, etc. This study made many 
recommendations that the Services largely concurred with.
    Please provide an update on the camouflage program and associated 
combat uniform programs. Is there a requirement for continuing to 
improve the combat clothing worn by our warfighters, both the base 
uniform and the flame-resistant variant?
    General Ostrowski. The Army recently completed a very comprehensive 
Phase IV Camouflage study which was the most extensive uniform 
camouflage study ever undertaken--underpinned by science with extensive 
Soldier involvement. The Army designed a scientifically rigorous 
evaluation program, studying the performance of camouflage in a wide 
variety of terrains, vegetation and times of day. Initial decisions and 
recommendations have been provided to senior Army leaders, and the Army 
is now waiting on a final decision announcement and guidance from our 
Army leadership regarding the scope and timelines of potential changes. 
As far as inter-service uniform coordination or issues, those decisions 
fall within the Office of the Secretary of Defense's purview. The Army 
continuously seeks improvements to the combat clothing worn by our 
warfighters. Our combat and materiel developers routinely assess 
capabilities desired, using periodic survey and lessons learned 
feedback from Soldiers and unit leaders, and evolving technological 
improvements to ensure the uniforms worn by our Soldiers in combat and 
in garrison are meeting the Army's needs.
    Mr. Turner. Are you aware that the average age of the top 5 most 
often employed U.S. small arms are on average around 30 years old? How 
are you modernizing the family of small arms?
    General Ostrowski. For the past two decades, the Army has 
continuously modernized our fleet of small arms, with improvements 
based both on technological opportunities and Soldier feedback. Since 
its adoption in the early 1990s, the M4 carbine has been one of the 
premier small arms weapons in the world. Based on feedback from the 
field, the Army has undertaken a multi-phased product improvement 
program to upgrade the Army's M4s to the M4A1 Special Forces' version 
carbine. The M4A1 provides a full auto capability, a consistent trigger 
pull, and has a greater capacity to maintain accuracy and zero while 
withstanding the heat produced by high volumes of fire.
    The M320 Grenade Launcher, fielded to the Army in 2009, is the 
replacement to the M203 series grenade launchers, introduced in the 
early 1970s. As a modular system, the M320 attaches under the barrel of 
the M16 rifle or M4 carbine and can also convert to a stand-alone 
weapon. Additionally, the M320 improves on the M203 with an available 
integral day/night sighting system and improved safety features.
    The Army also identified a need to upgrade its sniper weapons to 
extend range and address accuracy shortcomings of the M24, M110 Semi 
Automatic Sniper System, and M107 Long Range Sniper Rifle. This led to 
the XM2010 Enhanced Sniper Rifle which utilizes .300 Winchester Magnum 
ammunition to engage targets accurately out to 1,200 meters.
    Several other examples of modernization efforts include: the MK19 
40mm Grenade Machine Gun, adopted by the Army in 1986, upgraded with an 
adjustable sight bracket to allow compatibility with various optical 
sights, and a Modification Kit for increased weapon reliability; the M2 
.50 Caliber Heavy Barrel Machine Gun, which is being converted to the 
M2A1 configuration to allow for rapid barrel change at the Operator 
level without the need for setting the headspace and timing, which 
significantly increases Soldier safety; and, the M240 7.62mm machine 
gun family, which has received 16 major improvements since 1998, to 
include the M240L, which provides the same capability at a weight 
savings of over seven pounds; and, last, the M249 5.56mm Squad 
Automatic Weapon has received 25 major improvements since 1987.
    Mr. Turner. To the extent possible what programs and/or policies 
has the Army put in place to sustain and stabilize the domestic 
industrial base for individual warfighter equipment? How have these 
programs and/or policies been communicated to industry and to what 
effect?
    General Ostrowski. The Army works closely with the Defense 
Logistics Agency (DLA) with regard to forecasting yearly sustainment 
requirements. The Army forecasts its sustainment requirements through 
the Tank Automotive Command Logistic Support Office, which is co-
located with DLA Troop Support in Philadelphia. The Army defers to DLA 
for specifics regarding any preliminary findings from the ongoing body 
armor, clothing, and textile industrial base studies.
    Mr. Turner. One of the great successes of equipment in the last 
decade has been developing rapid fielding initiatives that leverage 
commercial-off-the-shelf products such as ballistic eyewear--items that 
have saved the sight and reduced the number of eye injuries to our 
deployed forces. I understand items like this are purchased using 
overseas contingency funds feeding operations and maintenance accounts. 
As this funding goes away, how is the military going to ensure that 
soldiers, sailors, airmen, and marines are equipped with critical, 
relatively low-cost items, such as ballistic eyewear? What process is 
being used to determine what soldiers get ``deployer bundles'' or rapid 
fielding items going forward?
    General Ostrowski. The Army's intent is to not lose sight of the 
significant progress we've made over the last 10-11 years in rapidly 
fielding and equipping our Soldiers and unit leaders. We have learned 
to value Soldier's innovative ideas and have developed processes to 
address operational commanders' needs on the ground through Rapid 
Fielding Initiatives (RFI) and most notably through our Rapid Equipping 
Force (REF). Each has been extremely successful over the last ten years 
of conflict; RFI using Overseas Contingency Operations (OCO) funding to 
provide critical individual Soldier and unit equipment--like ballistic 
eyewear--to deploying forces, and REF providing timely solutions--like 
RAVEN and PUMA Unmanned Aerial Systems--to warfighters and anticipating 
future requirements in collaboration with operational commanders and 
acquisition materiel developers. The Army's Soldier Enhancement Program 
(SEP), required by Congress since 1989, is the Army's existing, 
baseline funded program designed to rapidly assess innovative equipment 
designated for Soldiers. SEP items showing great promise to the Army at 
large are then used to inform further combat and materiel development. 
In the future the Army will maintain rapid equipping capabilities in 
some form and, though the structure and size of such organizations are 
still to be determined, this type of innovative approach to Soldier 
problem solving will still be a priority. Additionally, the Army staff 
is considering several options to define the long term requirements to 
support our Soldiers with the right equipment needed to accomplish the 
mission assigned in support of a Combatant Commander, including 
equipping concepts designed to ensure the latest operational uniforms, 
clothing and individual equipment are bundled and immediately available 
for fielding to Soldiers in synch with deployments to contingency 
operations.

    Mr. Turner. It has been almost 4 years (July 28, 2009) since the 
Government Accountability Office issued a report on Army and Marine 
Corps Ground Combat Helmet Pads. In the report, the GAO states that the 
``Army and Marine Corps are aware of the use of unapproved (helmet) 
pads and have taken steps to rectify this practice.''
    With Traumatic Brain Injury as perhaps the signature injury of the 
wars in Iraq and Afghanistan, can you tell me if soldiers and marines 
are still using unapproved helmet pads? If so, what steps are you now 
taking to rectify this practice?
    General Ostrowski and Mr. Bechtel. Helmets issued to Soldiers, 
whether they are new or previously used helmets, are issued with new 
and approved pad systems. The Army has taken multiple steps to ensure 
the use and wear of authorized helmet pads only. These steps have 
included the publishing of an Army-wide, All Army Activities Message in 
April 2009 on the Unauthorized Procurement of Ballistic Protection, 
Body Armor, and other safety items. The message specifically included a 
reference to the purchase of helmet pads from unauthorized sources. The 
Army also published a Ground Precautionary Action Message in February 
2012, cautioning Soldiers against unauthorized liner systems in their 
helmets. Recently, Tank Automotive Command Life Cycle Management 
Command Safety of Use Message 13-013 was published, which contained a 
reference to the use or purchase of helmet pads from unauthorized 
sources. Also, the Advanced Combat Helmet Operator's Manual directs 
Soldiers to use only authorized pads and provides instructions to 
Soldiers to inspect for helmet pad serviceability.
    Mr. Turner. As evidenced by some of the recent and well-publicized 
training accidents in our military, it is clear that our service 
members need the best protective equipment during training as well as 
in theater. Specific to head protection for reducing Traumatic Brain 
Injury, what checks are in place within the Army and Marine Corps to 
make sure that our warfighters are receiving standard issue headgear, 
to include authorized pad systems, both in training and in theater?
    General Ostrowski and Mr. Bechtel. Helmets issued to Soldiers, 
whether they are new or used helmets, are issued with new and approved 
pad systems. The Army has, and continues to provide, guidance to 
Soldier leadership through Army wide, All Army Activity (ALARACT) 
Messages, Ground Precautionary Action (GPA) Messages, and Safety of Use 
Messages (SOUM) to ensure identification and removal of unauthorized 
personal protective equipment (PPE) from the Army inventory. An ALARACT 
Message, issued in April 2009 on the Unauthorized Procurement of 
Ballistic Protection, Body Armor, and other Safety Items, was issued 
specifically including a reference to the prohibition of purchasing 
helmet pads from unauthorized sources. The Army published a GPA Message 
in February of 2012 cautioning Soldiers against unauthorized liner 
systems in their helmets. Recently, the Tank Automotive Command Life 
Cycle Management Command published a Safety Of Use Message that 
directed Soldiers not to use or purchase helmet pads from unauthorized 
sources. Also, the Advanced Combat Helmet Operator's Manual directs 
Soldiers to use only authorized pads and provides instructions to 
Soldiers to inspect helmet pads for serviceability.
    Mr. Turner. What are the Army and Marine Corps plans for female-
specific equipment (to include clothing, individual equipment, and body 
armor) development? To what degree do these plans depend on sustainment 
funding and/or new program funding?
    General Ostrowski and Mr. Bechtel. The Army developed eight 
additional sizes to the Generation III Improved Outer Tactical Vest 
(IOTV) to accommodate female specific physiological measurements. These 
new IOTV sizes are designated Female IOTVs (FIOTV). There are currently 
17 FIOTVs being worn by Soldiers assigned to Female Engagement Teams 
throughout Afghanistan. The FIOTV is on schedule to begin full rate 
production in the summer of 2013 and PEO Soldier is anticipating 
fielding 600 FIOTVs for one Brigade Combat Team in late August 2013. 
The FIOTV will be available to the female Soldier population deploying 
to Afghanistan in late Fourth Quarter, Fiscal Year 2013 (FY13). The 
FIOTV will require sustainment with Army G4 sustainment dollars 
starting in FY14. The Soldier Protection System--Torso Protection (TP) 
subsystem will seek to replace the current Concealable Body Armor, 
Soldier Plate Carrier System, and IOTV with one modular system. The TP 
will adopt the female specific sizing that contributed to the FIOTV. 
Successful development is dependent on Research and Development 
funding.
    In addition, the Universal Camouflage Pattern Army Combat Uniform 
Alternate (ACU-A) with Permethrin provides females and smaller statured 
male Soldiers with a better fitting Army Combat Uniform (ACU). The ACU-
A is also produced in smaller and shorter length sizes than the current 
ACU. The ACU-A will soon be available for Soldiers to purchase at Army 
Military Clothing Store (AMCS), online from AMCS, and online from 
Kentucky Logistics Operation Center. The ACU-A is funded through the 
Military Personnel Account for the Clothing Bag. Fielding to Soldiers 
began May 2013.
    Finally, the Physical Fitness Uniform (PFU), currently pending 
approval by the Chief of Staff of Army, is also being sized to better 
fit female Soldiers. Female PFU uniforms are being tested in a Soldier 
user evaluation. This alternate style should better accommodate female 
Soldiers. Fielding to Soldiers is expected to begin in the first 
quarter, FY15. The PFU is funded through the Military Personnel Account 
for the Clothing Bag.
    Mr. Turner. What are the Army and Marine Corps plans to enhance 
communications with industry in the coming fiscal year?
    General Ostrowski and Mr. Bechtel. PEO Soldier maintains a 
continuous dialogue with our industry partners and meets on an ongoing 
basis with vendors to discuss both broad and specific issues with 
regard to our programs. In addition, we routinely hold Industry Days to 
exchange information with the industrial base on current and upcoming 
initiatives. We use tools such as the Federal Business Opportunities 
website to post Requests for Information and draft Requests for 
Proposals on pending requirements to gain industry feedback.
    For the remainder of this fiscal year and in Fiscal Year 2014 
(FY14), we have several Industry Days planned. On June 27, 2013, 
Project Manager Soldier Weapons will hold a Small Arms Fire Control 
Industry Day at Picatinny Arsenal, New Jersey. The focus will be to 
provide our industry partners with current information for materiel 
solutions to address current capability gaps. This forum will also 
allow industry representatives to keep the Government apprised of 
technology developments. The Cross Service Warfighter Equipment Board, 
on which PEO Soldier is represented, is working with our sister 
services and the Defense Logistics Agency Troop Support to conduct a 
multi-day Advanced Planning Briefing to Industry in Philadelphia, 
Pennsylvania in the Fourth Quarter FY13 to review new requirements for 
the upcoming fiscal year. From October 15 -17, 2013, Project Manager 
Soldier Sensors and Lasers will conduct Precision Fires Industry Days 
at Fort Belvoir, Virginia to enhance communications with our industry 
partners in that market sector. And finally, Project Manager Soldier 
Sensors and Lasers will also conduct two Industry Days for the Family 
of Weapon Sights--Crew Served (FWS-CS); one during the Second Quarter 
FY14 and one during the Fourth Quarter FY14. These Industry Days will 
focus on programmatic updates, draft technical documentation, and one-
on-one sessions with potential vendors.
    Mr. Turner. Is there a DOD investment strategy for new materials 
that will provide step change improvements to warfighter equipment?
    General Ostrowski and Mr. Bechtel. Advances in materials science 
have the potential to impact all Army platforms. As such, the Fiscal 
Year 2014 (FY14) basic research investment in materials science is $182 
million, or 43 percent of the Army's total FY14 basic research funding. 
The Army invests in biotechnology, nanotechnology, and Army specific 
domains of materials science including high deformation rates in 
structural and protection materials, energetic materials, electronics, 
and power and energy. Examples include investments in Textile Composite 
Armor which provides a framework for successful design of lightweight 
textile armor of the future. This research is unparalleled outside of 
the Army and its payoffs include transparent armor lenses that can be 
integrated into eye protection systems. Investments are also being made 
into insensitive munitions and energetic materials for next generation 
small arms weapons that give unprecedented firepower to the Soldier 
(e.g. a 40mm with energetic power greater than a 155mm) and 
environmentally benign materials. Additionally, the Army is investing 
in the capability to design, optimize, and fabricate light weight 
protection material systems that exhibit revolutionary performance by 
manipulating matter all the way back to the atomic scale. This is a 
``grand challenge'' that pushes the existing high-performance material 
envelope. Payoffs from this research include protection materials with 
33 percent savings in weight of current systems and batteries with 
triple the energy density that can provide 30 percent longer life-times 
at a reduced cost (20-30 percent).
    Mr. Turner. Please provide a couple of examples of the most recent 
new products that have significantly reduced the soldier's load? On 
average how often will weight-saving technology refreshes occur across 
the portfolio of items the soldier wears and carries. What are the 
risks to achieving these improvements? Are they being developed with 
overseas contingency operations funds?
    General Ostrowski and Mr. Bechtel. The Army is incorporating weight 
saving technology that can meet current protection requirements into 
current personal protective equipment (PPE) and other Soldier equipment 
as rapidly as possible. The Army has leveraged new material 
construction and design approaches to reduce the weight of the Improved 
Outer Tactical Vest (IOTV) and Soldier Plate Carrier System (SPCS). The 
current Generation III IOTV, which weighs 31 pounds (lbs) (with plates) 
for a size medium, is four percent lighter than the previous IOTV 
variant. These same approaches are being applied to the SPCS, which 
weighs 23 lbs (with plates) for size medium, in order to reduce the 
weight by three percent. The latest specification for the Advanced 
Combat Helmet (ACH), which currently weighs 3.06 lbs for a medium, 
being procured by Defense Logistics Agency Troop Support for 
sustainment, requires a weight reduction of eight percent. The 
Lightweight ACH, which will also be procured by the Defense Logistics 
Agency Troop Support weighs 2.8 lbs for a size medium. By leveraging 
technology, we were able to achieve weight savings of 6.5 lbs in the 
Nett Warrior program as compared to its predecessor, the Land Warrior. 
As new technology is available, we will continuously strive to reduce 
weight even further to lessen the burden on our Soldiers. Because of 
our rigorous test protocols for all PPE, the risks to achieving these 
improvements are significantly reduced. Our base budget includes 
Research, Development, Test and Evaluation funding for PPE.

    Mr. Turner. I understand that the Army has undertaken a detailed 
sizing study to update the sizing tariff for clothing and equipment--
basically determining the size of men and women in the Army with the 
objective of ensuring that equipment fits everyone.
    Mr. Bechtel, can you tell me the process that the Army went through 
to ensure that individual equipment, especially for dismounted 
soldiers, is available in sizes that fit men and women? Have you 
changed any requirements in order to field women in the infantry 
equipment that fits?
    Mr. Bechtel. The Army's Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology materiel developers pursue 
individual Soldier uniform and equipment form, fit, and function 
optimization as part of their routine product improvement efforts. Very 
good examples of recent improvements include sizing and fit updates to 
the Army's Improved Outer Tactical Vest (IOTV) and Army Combat Uniform 
(ACU), resulting in additional female specific IOTV sizes and an ACU-
Alternate (ACU-A) uniform which fits the female body better and 
provides a better fit for some small-statured male Soldiers. The 
Headquarters, Department of the Army Deputy Chief of Staff, Logistics 
G-4 led Army Uniform Board (AUB) also routinely reviews specific male/
female uniform related issues for dress and non-combat uniforms. The 
Army continuously evaluates Soldier equipment requirements. Based on 
those evaluations, no changes to any specific Soldier protection 
requirement is necessary in order to address the expanding role of 
women in combat. The Army does not differentiate the critical 
protection needs of our Soldiers whether they are male or female. As a 
result, the Key Performance Parameters and Key System Attributes that 
identify the critical requirements for materiel solutions are no 
different for body armor, uniforms, and individual Soldier equipment 
with regard to men and women.
    Mr. Turner. Does the Army currently have a validated requirement 
for lighter-weight body armor systems?
    Mr. Bechtel. Yes, based on validated Operational Need Statements 
the Army developed and approved a Soldier Plate Carrier System (SPCS) 
directed requirement in 2009, and a Concealable Body Armor (CBA) 
directed requirement in 2012. These interim solutions provide a lighter 
weight alternative body armor capability specifically to for Soldiers 
conducting dismounted operations and training and mentoring of Afghan 
National Security Forces, respectively, in Operation Enduring Freedom 
(OEF). The Army continues to strive for lighter weight capabilities, 
including body armor systems. However, the key performance parameters 
addressing Soldier protection will always be pre-eminent. The current 
Army requirement for an improved lighter weight body armor system is 
defined in the Soldier Protection System (SPS) Capability Development 
Document (CDD), approved in February 2013. This requirement will be 
used to develop the next generation of body armor, as well as other 
areas of personal protective equipment to include head protection. The 
SPS CDD specifically calls out the need for lighter weight armor, with 
objective weight reductions of 5-15% for soft armor, hard armor, and 
helmets. The SPS CDD also identifies a modular and tailorable 
capability, which facilitates reducing weight further through the 
ability to tailor body armor based on mission and threat. The Army 
recognizes the tradeoff between weight and Soldier protection, and 
continues to strive for lighter weight materiel solutions without 
sacrificing our protection standards.
    Mr. Turner. Does the Army G3 and requirement community take into 
account the long-term consequences and costs to the entire Government 
when developing requirements? Are you satisfied that the Army 
requirements community knows what is the art of the possible?
    Mr. Bechtel. Yes, we do assess the long term health consequences 
and potential retirement related costs to the government as a very 
important part of the requirements development process. For instance, 
proponents and combat developers recognize the amount of equipment in 
and weight of a Soldiers load can significantly impact the Soldier's 
long term health. A specific example to help assess, capture, and 
address this is the Army's use of the concept of manpower and personnel 
integration, what we call MANPRINT. The Army also pursues 
experimentation, testing, analysis, and surveys to assist in the 
collection of data necessary to substantiate performance and 
effectiveness in the requirements development process. In the area of 
body armor and other protection element, we fully recognize the 
tradeoffs between protection, ballistics, and weight, and the impact 
they have on the Soldier, not only from a mobility aspect, but also on 
the near-term and long-term health skeletal and muscular systems.
    Regarding the art of the possible, yes the Army continues to take 
hard looks at ways to improve our operational forces. For instance, in 
the areas of Soldier mobility and the squad as a system, the 
requirements community habitually examines changing our doctrine and 
concepts, the use of robotics, and vehicle support (i.e., improved 
suspension systems) to push the envelope and provide a tactical edge. 
An example of an improved technological capability being pursued is can 
be found in work being done with nanotechnology and the superheating of 
different composites. State of the art nanotechnology is able to create 
a small armor plate, not the size of the current body armor plate, but 
a six-inch plate that is very light with the capability to potentially 
prevent against small arms munitions penetration. So we're pursuing 
innovative approaches across a lot of systems to take care of our 
Soldiers--not only for the near-term operational mission need, but just 
as important, the long-term health and quality of life for our 
Soldiers.

    Mr. Turner. Does the Marine Corps currently have a validated 
requirement for lighter-weight body armor systems?
    General Smith. The primary requirement for body armor systems is 
based on levels of protection required. There are validated and 
specific weight requirements for these systems. The Army's Soldier 
Protection System Capabilities Development Document (CDD) will be the 
overarching document for ballistic protection requirements that will be 
reflected in individual Capability Production Documents (CPDs). The 
Army intends to start fielding the Scalable Protection System (SPS) in 
FY15, and is primarily focused on weight reduction. The Marine Corps 
will take a longer approach that will allow technology to mature to the 
level necessary to achieve our goals in protection, integration, and 
mobility, which we view as being equal in importance in a true next 
generation system. Additional Key Performance Parameters (KPPs) will be 
emphasized by defining mobility parameters using the Marine Corps Load 
Effects Assessment Program (MCLEAP), and integration parameters by the 
IPT within the Modular Scalable Protection System (MSPS) IPT (which is 
chartered). The Marine Corps is continually evaluating the potential 
for weight reduction with the stipulation that new developments 
maintain the same levels of protection of current personal protective 
equipment.
    The Marine Corps has consistently challenged industry during our 
various industry meetings and conferences to provide the same 
protection level at 20% decrease in weight. The Marine Corps has 
partnered with industry, government and academia through the Office of 
Naval Research and the Naval Research Lab to develop new technologies 
and materials that will reduce the weight of body armor or increase 
capability at the same or lighter weight. Presently, we are engaged in 
several Small Business Innovation Research (SBIR) projects through 
Marine Corps Systems Command and have funded white papers submitted in 
response to the Natick Soldier Research and Development and Engineering 
Center Broad Agency Announcement. The Marine Corps also coordinates its 
efforts closely with the Army to prevent duplication of effort and 
increase joint exploration of promising technologies. These combined 
efforts drive the development of lighter weight body armor technologies 
and designs.
    Examples of efforts include research into new vest designs and 
materials, Lightweight ESAPI and objective weight ECSAPI, flexible 
armor, eyewear, helmets (Helmet Electronics and Display System--
Upgradeable Protection Army Technology Objective (HEaDS-UP ATO)) and 
protective undergarments. In addition, the MSPS aims to integrate the 
attributes of current armor protective levels with a lighter weight, 
load distribution system that will also enable greater range of motion 
and less stress on Marines.

    Mr. Turner. It has been almost 4 years (July 28, 2009) since the 
Government Accountability Office issued a report on Army and Marine 
Corps Ground Combat Helmet Pads. In the report, the GAO states that the 
``Army and Marine Corps are aware of the use of unapproved (helmet) 
pads and have taken steps to rectify this practice.''
    With Traumatic Brain Injury as perhaps the signature injury of the 
wars in Iraq and Afghanistan, can you tell me if soldiers and marines 
are still using unapproved helmet pads? If so, what steps are you now 
taking to rectify this practice?
    General Smith and General Kelley. Team Wendy pads are used in the 
present Lightweight Helmet and will be used in the Enhanced Combat 
Helmet. The Team Wendy pads were proven to be superior in a 2006 Blunt 
trauma study when compared to all the leading pad systems.
    The Army is leading an effort to find alternative pad systems. The 
Marine Corps is following this program and is committed to adopting the 
same system if it proves to be more effective than the current Team 
Wendy pad system. This effort has been coordinated through the Cross 
Service Warfighter Equipment Board (CSWEB).
    Mr. Turner. As evidenced by some of the recent and well-publicized 
training accidents in our military, it is clear that our service 
members need the best protective equipment during training as well as 
in theater. Specific to head protection for reducing Traumatic Brain 
Injury, what checks are in place within the Army and Marine Corps to 
make sure that our warfighters are receiving standard issue headgear, 
to include authorized pad systems, both in training and in theater?
    General Smith and General Kelley. Team Wendy pads are used in the 
present Lightweight Helmet and will be used in the Enhanced Combat 
Helmet. The Team Wendy pads were proven to be superior in a 2006 Blunt 
trauma study when compared to all the leading pad systems.
    A Marine Administration Message released in April 2007 establishes 
that it is Marine Corps policy, for Marines and Sailors assigned to 
both USMC and Joint command, to be issued Marine Corps approved PPE, 
which includes the Lightweight Helmet. It further clarifies that 
Marines and Sailors may not use commercial PPE in lieu of government 
tested, approved and issued PPE. The language is clear that enforcement 
of this policy is a Commander responsibility.
    Mr. Turner. What are the Army and Marine Corps plans to enhance 
communications with industry in the coming fiscal year?
    General Smith and General Kelley. The Marine Corps works closely 
with the industrial base to field innovative solutions to identified 
requirements keeping cost-effectiveness and sustainability in mind 
during this prolonged period of fiscal austerity. We do this by 
actively engaging and communicating our programmatic and technical 
priorities, needs and future plans with industry in a number of forums.
    At the ground level, Marine Corps Systems Command (MCSC) 
established the Industry Interface Council (IIC). The IIC is comprised 
of Command representatives and industry who meet on a regular basis 
that provides an effective feedback between MCSC and industry on ways 
to continue to better serve and communicate with each other. A result 
from the IIC was the launch of the Marine Corps Advanced Planning 
Briefing to Industry (APBI).
    Additionally, the Marine Corps participates in many events, large 
and small, in an effort to communicate with industry. The larger events 
include the annual Modern Day Marine Exposition that includes the 
Marine Corps Report to Industry and the biennial Advanced Planning 
Briefing to Industry. During these events, Marine Corps General 
Officers highlight the needs and way ahead of the Corps by providing 
industry with our acquisition and funding plans. Smaller events include 
``Industry Days'' where many individual Marine Corps ground programs 
offices meet with industry throughout the year, giving businesses an 
opportunity to inform our acquisition professionals with potential 
solutions that could better equip our warfighters. As we continue to 
recognize the potential capabilities, innovations, and technology 
solutions that small businesses can offer, MCSC's Office of Small 
Business Programs (OSBP) is involved in small business and industry 
outreach events on a weekly basis. MCSC's OSBP participates in local 
and national small business outreach events, where the MCSC OSBP 
matches the capabilities of small businesses with MCSC and Program 
Manager Officer Land Systems requirements.
    Such events provide great venues for industry to stay abreast of 
opportunities with the Marine Corps acquisition community and for the 
Marine Corps to learn about potential solutions.
    Mr. Turner. I am concerned about the requirements for issuance 
uniforms. I understand that the Department of Defense does not have a 
universal standard for when a soldier, sailor, airman, or marine must 
be issued fire-retardant clothing.
    Please explain how the Marine Corps determines who is issued what 
versions and components of flame-resistant uniforms and the process by 
which this decision is made to include the decisionmaker? What is the 
sustainment requirement for these uniforms and how is it budgeted?
    General Smith and General Kelley. The Marine Corps currently uses 
the same textile solution for its flame resistant uniforms as the other 
services--the ``Defender M'' produced by Tencate. All four Services 
continue to work closely and share in research and development and 
information on advancements in textiles that may result in better flame 
resistant protection coupled with lighter weight and improved 
durability.
    The Marine Corps provides all of its forward deployed Marines with 
Flame Resistant Organizational Gear (FROG) which consists of outer and 
under garments, gloves, and head, face, and neck protection.
    The decision to wear FROG is retained by the Combatant Commander 
but is often delegated down to the Battalion Command level. A 
commander's decision for his Marines to wear or to not wear FROG is 
commonly based on a careful consideration of the threat, environment, 
mission and other operational factors/conditions.
    The sustainment requirement for FROG is the ability to support 
Marines forward deployed to Operation Enduring Freedom (OEF) and with 
the Marine Expeditionary Units (MEU). Sustainment is currently 
supported through a combination of Overseas Contingency Operations and 
programmed Operations and Maintenance Marine Corps (OMMC) funds.
    Mr. Turner. A recent GAO study highlights the difficulties the 
military services have experienced with respect to combat uniforms and 
camouflage with multiple variants across the Services, different and 
ineffective patterns, different FR materials, a lack of coordination 
within and across the Services, etc. This study made many 
recommendations that the Services largely concurred with.
    Please provide an update on the camouflage program and associated 
combat uniform programs? Is there a requirement for continuing to 
improve the combat clothing worn by our warfighters, both the base 
uniform and the flame-resistant variant?
    General Smith and General Kelley. The Marine Corps believes that 
every Service member deserves the opportunity to wear an effective 
camouflage uniform commensurate with their assigned mission and normal 
operating area. The Marine Corps supports camouflage uniforms that 
reduce visual detection and enhance performance.
    All of the Services, including DLA, work closely with U.S. Army 
Natick Soldier Research, Development and Engineering Command (NSRDEC) 
and mutually benefits from the incremental advancements and technology 
leaps impacting the development of individual combat clothing and PPE.
    When it comes to requirements, the Marine Corps and the Army 
collaborate wherever their mission profiles converge. In the case of 
the uniform, the Marine Corps has looked at the places we think we 
would be most likely employed, and we've created a uniform for that.
    We are not aware of any effort to develop a singular uniform. While 
we collaborate in many areas, in regard to the combat uniform, the Army 
and the Marine Corps selected different solutions. A distinct mission 
profile is the distinguishing factor that precludes development of a 
singular uniform.
    Mr. Turner. What are the Army and Marine Corps plans for female-
specific equipment (to include clothing, individual equipment, and body 
armor) development? To what degree do these plans depend on sustainment 
funding and/or new program funding?
    General Smith and General Kelley. The Marine Corps realizes that 
the differences in female anatomy are not necessarily compatible with 
current armor designs. We also have found that challenges remain in 
retaining ballistic performance with curved plate geometries. Tests 
have shown conformal ceramic armor doesn't meet ballistic performance 
standards.
    For the past three years, the Marine Corps has monitored and 
actively supported the U.S. Army's effort to develop female specific 
body armor. The U.S. Army developed new prototype body armor for female 
soldiers based on the Improved Outer Tactical Vest (IOTV), which is 
being evaluated for fit and sizing. The U.S. Army has designated the 
IOTV as their replacement for the Outer Tactical Vest (OTV). The OTV 
was previously issued and shared with the Marine Corps. We have since 
replaced the OTV with the Plate Carrier (PC). We will address the 
interim and long term solution to enhance the fit, form, and comfort of 
the Marine Corps Family of Body Armor (FBA) to best provide ballistic 
protection capability across the range of Marine stature and gender 
spectrum. The Marine Corps will conduct a comprehensive survey fit of 
torso, pelvic, and helmet ballistic protection systems during FY13. The 
survey seeks to obtain a better understanding of issues specific to 
smaller stature and female demographic, and comprehensive data on fit, 
sizing, and comfort which will be incorporated into the design of the 
next generation fully integrated, Modular Scalable Protective System 
(MSPS). We will continue to monitor the U.S. Army in their efforts to 
develop solutions to address notable issues with sizing and comfort 
levels of body armor for female soldiers.
    We do not have a funding line for female body armor as all of our 
armor is incorporated into the Family of Ballistic Protective Systems. 
We are working with the Army as noted above on improvements to our 
current systems. We additionally have different sizing than the Army 
which improves the fit of the current systems with smaller stature 
Marines.
    Mr. Turner. Please provide a couple of examples of the most recent 
new products that have significantly reduced the soldier's load? On 
average how often will weight-saving technology refreshes occur across 
the portfolio of items the soldier wears and carries. What are the 
risks to achieving these improvements? Are they being developed with 
overseas contingency operations funds?
    General Smith and General Kelley. Our goal is to give Marines the 
equipment and confidence to accomplish his or her mission successfully. 
To do this, we constantly seek the balance between effectiveness and 
weight of the equipment and the speed, endurance and survivability of 
the warfighter. The Marine Corps' continues to look at ways to make 
advancements in reducing the Marine's combat load.
    For example, the introduction of the Infantry Automatic Rifle 
reduced the load of the three heaviest-burdened Marines in the rifle 
squad, the Automatic Riflemen. There is an eight-pound difference in 
unloaded weapons and a 14-pound difference in loaded weapons when 
compared to the M249 (Squad Automatic Weapon). This weapon 
significantly enhances the mobility of the Marines with the greatest 
quantity of automatic firepower in the squad and provides 
interoperability of ammunition sources throughout all the squad members 
by eliminating linked ammunition required by the M249. These systems 
were developed and procured with base budget not OCO funding.
    Additionally, we are aggressively improving the energy 
effectiveness of our Marine's equipment as another aspect of lightening 
the load. On the individual Marine, over a dozen batteries in six 
different configurations are used at any given time. The Marine Corps 
is fielding, in OEF, the next generation of solar-powered alternative 
energy solution, SPACE and GREENS, to recharge batteries and power 
laptops, radios, and other Platoon through Battalion level equipment in 
order to reduce the need for generators and fuel resupply convoys. 
Centralizing, standardizing, and reliably distributing power has the 
potential to reduce the reliance upon the multiple types of batteries 
that are currently used in systems and carried in significant quantity 
as spares. Initial SPACES and GREENS efforts received some OCO funding.

    Mr. Turner. The MSPS is the USMC's version of the Army's Soldier 
Protection System (SPS). I understand the MSPS takes a slightly 
different approach focusing on mobility and not weight reduction.
    Would a joint program yield more industry participation and 
competition? How different are USMC requirements from the Army's? What 
percentage of the total Corps will get this system? How was that 
percentage determined?
    General Kelley. The Modular Scalable Protection System (MSPS) is 
the Marine Corps initial effort to develop a fully integrated system of 
ballistic protective equipment for the individual Marine. The MSPS 
includes protection for the head, eyes, hearing, torso, pelvic region, 
and extremities and will be developed with a balanced emphasis on 
protection, integration, and mobility. We want to develop protections 
systems that our equal to or greater than our current capability but at 
reduced weight. Moreover, with the MSPS we seek to improve the 
ergonomics of the elements within the MSPS to improve load carriage, 
flexibility, and bulk over current systems. We are also looking at 
novel approached to integrate load bearing capabilities (packs and 
pouches) and power/data management for the individual Marine.
    The focus on returning mobility to the individual Marine will 
incorporate the Marine Corps Load Effects Assessment Program (MCLEAP) 
as a means to baseline our current systems, provide a mobility metric 
for the MSPS requirement, and measure improvements in mobility provided 
by prototypes for the MSPS.
    The Modular Scalable Vest (MSV) is the torso armor component of the 
MSPS and is currently under development. The focus of the MSV program 
is to provide increased protection levels with no weight costs while 
enhancing Marine mobility and combat effectiveness through smart load 
management and integration capabilities. The MSV will provide the 
capability to scale protection levels in a single system, a load 
distribution and carriage capability, and inherent integration 
capabilities with the USMC Pack System. The MSV will utilize both a 
lighter weight soft armor, which offers 10-15% weight reductions over 
current soft armor, and the Enhanced Capability Small Arms Protective 
Inserts (EC SAPIs), which provide increased ballistic protection at 
current Enhanced Small Arm Protective Inserts (ESAPIs) weight. Both of 
these improvements were developed in coordination with the Army and 
will be resident within their future systems as well. We plan to begin 
fielding the EC SAPIs in Fiscal Year (FY) 2014 and the MSC in FY2016.
    Would a joint program yield more industry participation and 
competition?
    There is significant collaboration between the Army and the Marine 
Corps now and also significant participation and competition across the 
segment of industry interested in these capabilities with no conclusive 
evidence that a Joint program would influence greater competition or 
yield increased support to the Warfighters in each of the Services. The 
response to the Marine Corps' effort to develop concept demonstrators 
for the MSV has been enthusiastic and promising. Recently, there has 
been increased interest on the part of the Army in the Marine Corps 
approach to the MSPS as a whole and the MSV specifically and plans are 
being made to test Army and Marine Corps concepts side-by-side. 
Additional interest on the part of industry is sure to result.
    How different are USMC requirements from the Army's?
    The Army and Marine Corps use the same ESAPI plates for hard armor 
protection and the same soft armor materials for torso and pelvic 
protection. The main difference between the Army and Marine Corps 
pursuit of next-gen personal protection systems is in the design and 
cut of our soft armor.
    The Army's Soldier Protection System Capabilities Development 
Document (CDD) emphasizes weight reduction as the primary means to 
return mobility to the individual soldier. However, the Army's CDD does 
not include mobility as a desired attribute and while improved 
integration is an Army goal, it falls subordinate to protection and 
weight reduction. In addition, the Army intends to begin fielding their 
Soldier Protection System (SPS) in FY 2015.
    The Marine Corps intends to take a longer approach to permit 
technology and design to mature to the level we believe necessary to 
achieve our combined goals in protection, integration, and mobility, 
which we consider of equal in importance in our pursuit of a next 
generation system. The balance between protection and weight reduction 
are being emphasized by defining mobility parameters and requirements 
using the MCLEAP.
    What percentage of the total Corps will get this system? How was 
that percentage determined?
    Our initial acquisition objectives are intended to support forward 
deployed forces and forces preparing to deploy, approximately 38% of 
the total force, with the MSV and other components of MSPS as they are 
developed. This strategy is driven by the desire to equip our 
warfighters with the most up to date and capable protection systems 
while conscientiously shepherding our limited resources. Limiting 
fielding to deployers optimizes development and design of these new 
systems by directly incorporating user feedback into follow on 
configurations. This approach prevents costly and multiple fielding of 
incrementally improved protection systems across the force until a 
final, optimized configuration is achieved. For the majority of the 
Corps, currently issued protection systems will be sustained and 
improved periodically through insertions of lighter soft and hard armor 
as technology and resources allow.
    Mr. Turner. What is the current status of the enhanced combat 
helmet? Why is it taking so long to procure this helmet?
    General Kelley. To date, the Enhanced Combat Helmet (ECH) 
successfully completed the First Article Test III, and it is undergoing 
full up system level testing which is anticipated to be completed in 
May 2013. Upon successful completion of final testing requirements, the 
program office anticipates to award a delivery order during fourth 
quarter fiscal year 2013.
    The delay in procuring the ECH is a result of qualitative test 
failures with the vendor's second and third production lines due to an 
Engineering Change Proposal. Through root cause analysis, the 
contractor identified the issue and applied course correction.
    Mr. Turner. In 2010, Congress mandated DOD to establish a 
procurement line item for body armor components. DOD has failed to 
comply with this requirement. DOD has indicated that body armor is 
considered to be an ``expendable item'' and that creating a procurement 
line for expendable items would add inefficiencies in managing 
procurement quantities due to varying procurement quantity 
requirements.
    In your opinion, how would you categorize body armor? Do you 
consider body armor to be an ``expendable'' article, similar to a T-
shirt? DOD notes that inefficiencies would be created by establishing a 
procurement line item. Do you agree with this statement? If yes, then 
please provide more details into what types of inefficiencies would be 
created. Recognizing that one of the benefits of using O&M funding is 
flexibility, and that flexibility was required during the rampup for 
OIF/OEF, should DOD reassess whether a procurement line item would be 
appropriate for future buys now that current conflicts are drawing 
down?
    General Kelley. Yes, we consider body armor to be a consumable item 
because of its short life cycle. In comparison, the way that body armor 
is used and replenished is similar to that of unit issued clothing 
which is funded with OMMC. Further, body armor is not generally 
repairable. If it is damaged, body armor is disposed and a replacement 
is provided.
    Body armor is a consumable item with a unit cost less than the 
expense/investment threshold, therefore appropriately funded with O&M. 
We believe this is the most responsive way to not only replace damaged 
gear but to also respond to changing requirements.
    Mr. Turner. Are you aware that the average age of the top 5 most 
often employed U.S. small arms are on average around 30 years old? How 
are you modernizing the family of small arms?
    General Kelley. Although the original versions of some of our small 
arms entered the inventory nearly 50 years ago, current versions are 
significantly modified or newly produced to provide enhanced target 
detection, identification, accuracy, dependability, and lethality. The 
examples below highlight the life cycle product improvements and 
modernization across much of our inventory.
    5.56mm M16A4 Service Rifle--The first version, M16A1, entered the 
service in 1964. The current version was fielded in 2003 and features a 
heavier barrel, 3 round burst vice full auto setting, and MIL-STD-1913 
accessory rails to mount target acquisition and designator devices to 
include the Rifle Combat Optic, a 4 power magnification optic issued 
with every weapon. These improvements, coupled with significant 
improvements in ammunition, have increased target detection, weapons 
accuracy, range, penetration, and dependability.
    5.56mm M4 Carbine--The M4 was fielded in 2003 with similar features 
to the M16A4 (3 round burst vice full auto setting, and MIL-STD-1913 
accessory rails to mount target acquisition and designator devices to 
include the Rifle Combat Optic, a 4-power magnification optic issued 
with every weapon). The M4 is the designated weapon for all Officers 
and Staff Non-Commissioned Officers up to the rank of lieutenant 
colonel.
    5.56mm M27 Infantry Automatic Rifle--Fielding of the M27 Infantry 
Automatic Rifle (IAR) concluded in April, 2013. The IAR replaced the 
M249 Squad Automatic Weapon (SAW) within the Marine Rifle Squad. The 
M27 features a full auto firing setting, free floating barrel, and 4.5-
power magnification optic, and is half the weight of the M249. The 
reduced weight of the IAR increases the automatic rifleman's 
maneuverability and displacement speed, allowing him to keep pace with 
the rest of the fire team, while the increased accuracy coupled with 
the full auto capability maintains the lethal capabilities of the 
Marine rifle squad.
    7.62mm M40A5 Sniper Rifle--The M40 Sniper Rifle was initially 
fielded in 1966, with successors fielded in 1970 (M40A1); 2001 (M40A3); 
and 2009 (M40A5). Improvements within M40A5 include a fiberglass stock, 
3x to 15x power variable scope, forward accessory rail to facilitate 
mounting the in-line night vision as well as other devices (target 
designators, range finders), and a weapons signature suppressor.
    M240B Medium Machinegun--In 2006, the M240B replaced the M240G 
medium machine which had been in our inventory since 1997. The main 
improvements to the M240B include the MIL-STD-1913 accessory rails to 
mount target acquisition and designator devices to include the Machine 
Gun Day Optic (a 6-power magnification optic issued with every weapon), 
a hydraulic buffer w/in the butt stock to reduce recoil, and 
enhancements to the gas regulator. Combined, the improvements in the 
M240B enhance target acquisition, weapons accuracy, and weapon service 
life.
    M2 .50cal Heavy Machinegun--The M2 Heavy Barrel Machine Gun has 
been in the inventory since 1933 and remains largely unchanged. 
However, in conjunction with the Army, the Marine Corps is in the 
process of upgrading the M2 to the M2A1. Improvements within the M2A1 
.50 cal enhance safety and survivability and include a quick change 
barrel, fixed headspace and timing, and a new flash suppressor that 
reduces night weapon's signature by 95%.
    MK19 40mm Grenade Launching Machinegun--The MK19 entered the Marine 
Corps inventory in the mid-1980s and remains unchanged. There are 
currently no plans to replace or modify this weapon system.
    M9 9mm Pistol--The M9 pistol was initially fielded in 1985 and 
remains in service with no replacement planned. However, the Marine 
Corps is monitoring the Joint Modular Handgun System effort under the 
lead of the Army, and will determine its future participation based on 
operational needs.
    In addition to the Corps' ongoing efforts to modernize its small 
arms and small caliber ammunition inventories, we also actively 
participate in the Joint Services Small Arms Synchronization Team 
(JSSAST). The JSSAST is a Joint body organized to openly exchange 
information, generate small arms requirements and pursue the 
technologies necessary to produce the next generation of small arms in 
the 2025 and beyond timeframe.
    Mr. Turner. To the extent possible what programs and/or policies 
has the Marine Corps put in place to sustain and stabilize the domestic 
industrial base for individual warfighter equipment? How have these 
programs and/or policies been communicated to industry and to what 
effect?
    General Kelley. The Marine Corps procures equipment in response to 
a funded and validated requirement, not in any specific effort to 
sustain the industrial base in any industry. A way that the Marine 
Corps contributes to sustaining the domestic industrial base for 
warfighter equipment is complying with the Berry Amendment. All 
equipment we procure that contains materials covered by the Berry 
Amendment, mostly textiles, are from domestic sources. The Marine 
Corps, specifically Combat Development and Integration (CD&I), develops 
warfighter equipment requirements based on roles and missions laid out 
in Title 10. These requirements are validated by Marine Corps and DOD 
leadership, and are communicated to industry via Marine Corps Systems 
Command (MCSC) through Requests for Proposals and Requests for 
Information.
    The Marine Corps also actively engages and communicates our 
programmatic and technical priorities, needs and future plans in a 
number of forums. We participate in events ranging from broad to small 
platforms. Broad platforms include events like the annual Modern Day 
Marine Exposition and the biennial Advanced Planning Briefing to 
Industry during which the acquisition and funding plans are provided to 
industry. The more finite efforts include venues such as ``Industry 
Days'' where many individual Marine Corps ground programs offices meet 
with industry throughout the year, giving them an opportunity to meet 
with our acquisition professionals on potential solutions. In addition, 
the Marine Corps recognizes the potential capabilities, innovations, 
and technology solutions that small businesses can offer. MCSC Office 
of Small Business Programs (OSBP) is involved in small business and 
industry outreach events on a weekly basis. MCSC's OSBP participates in 
local and national small business outreach events, performing business 
matchmaking at many of those events, to match the capabilities of small 
businesses with MCSC and Program Manager Officer Land Systems 
requirements.
    Such events provide great venues for industry to stay abreast of 
opportunities with the Marine Corps acquisition community and for the 
Marine Corps to learn from industry about potential solutions.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. Hearing damage and hearing loss are two of the 
leading injuries among warfighters and veterans. In 2011, the VA spent 
over $1 billion on disability payments to veterans suffering from 
hearing loss. As hearing loss has grown to be the most common service-
connected disability resulting from OEF and OIF, that number is 
expected to exceed $2 billion in 2014. A recent GAO report even stated 
that ``well before retirement, such [hearing] damage can reduce 
servicemembers' ability to communicate and affect the quality of their 
professional and personal lives. Moreover, it can create additional 
costs to the government and taxpayers by decreasing troop readiness and 
increasing the need for medical services and disability compensation.'' 
The same report said, ``while [servicemembers] were generally aware 
that they were required to wear double protection, each was wearing 
single protection and many cited comfort as a reason for their non-
compliance. At other locations we visited, servicemembers cited the 
impact of hearing protection on communication.'' Last year the defense 
authorization contained language recognizing the measures take by the 
U.S. Army Special Operations Command to provide communications 
equipment with simultaneous, inner-aural hearing protection. What has 
the U.S. Naval Special Warfare Command done to provide the same 
preventative equipment? Do other components have plans to take the same 
measures to provide enhanced hearing protection and communications for 
deployed service members?
    General Ostrowski and Mr. Bechtel. This question is best answered 
by the Navy.

    Ms. Duckworth. Hearing damage and hearing loss are two of the 
leading injuries among warfighters and veterans. In 2011, the VA spent 
over $1 billion on disability payments to veterans suffering from 
hearing loss. As hearing loss has grown to be the most common service-
connected disability resulting from OEF and OIF, that number is 
expected to exceed $2 billion in 2014. A recent GAO report even stated 
that ``well before retirement, such [hearing] damage can reduce 
servicemembers' ability to communicate and affect the quality of their 
professional and personal lives. Moreover, it can create additional 
costs to the government and taxpayers by decreasing troop readiness and 
increasing the need for medical services and disability compensation.'' 
The same report said, ``while [servicemembers] were generally aware 
that they were required to wear double protection, each was wearing 
single protection and many cited comfort as a reason for their non-
compliance. At other locations we visited, servicemembers cited the 
impact of hearing protection on communication.'' Last year the defense 
authorization contained language recognizing the measures take by the 
U.S. Army Special Operations Command to provide communications 
equipment with simultaneous, inner-aural hearing protection. What has 
the U.S. Naval Special Warfare Command done to provide the same 
preventative equipment? Do other components have plans to take the same 
measures to provide enhanced hearing protection and communications for 
deployed service members?
    General Smith and General Kelley. [The information was not 
available at the time of printing.]

                                  <all>


</pre></body></html>
